No. 19In the

Supreme Court of the United States
AMEER SIDDIQUI,
Petitioner,
v.
NETJETS AVIATION, INC.,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Christina A. Jump
Counsel of Record
Charles D. Swift
Leila E. Mustafa
Constitutional Law Center
for Muslims in A merica
833 East Arapaho Road, Suite 102
Richardson, TX 75081
(972) 914-2507
cjump@clcma.org
Attorneys for Petitioner

291656

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED FOR REVIEW
1.

Are plaintiffs who bring retaliation claims under
either Title VII or Section 1981 subjected to the
strenuous “but for” test, or is a reasonable inference
sufficient to proceed past summary judgment? And,
are the standards different under each of these
statutes?1

2.

Must employees identify comparators who have “exact
correlation” or are “nearly identical” to the plaintiff,
under either Title VII or Section 1981, as required
by the Eleventh Circuit, or is the definition more
“flexible” as in the Seventh Circuit? Or, is it something
completely different, as tried by other circuits?

3.

Do employees bear the burden of definitively showing
discrimination in order to establish pretext under
either Title VII or Section 1981, or is a reasonable
inference of discrimination sufficient to survive
summary judgment?

4.

Must courts evaluate each act of retaliation raised
by plaintiffs under Title VII and/or Section 1981 to
consider whether they are related to the action at
issue, therefore creating a genuine issue of material

1. Petitioner is aware of the pending consideration by this
Court of Comcast Corp. v. Nat’l Assoc. of African Am.-Owned
Media, No. 18-1171, regarding the applicability of the “but for”
standard to claims brought under 42 U.S.C. § 1981. Petitioner
respectfully requests the right, as applicable, to supplement any
relevant briefing regarding the application of any ruling by this
Court in the Comcast Corp. case to Petitioner’s claims under
Section 1981 in this matter.

ii
fact, or may courts summarily dispose of retaliation
claims merely by reference to an earlier discrimination
analysis?

iii
PARTIES TO THE PROCEEDINGS BELOW
Petitioner Ameer Siddiqui was the Plaintiff in the
United States District Court for the Southern District
of Florida and the Appellant at the United States Court
of Appeals for the Eleventh Circuit. Respondent NetJets
Aviation, Inc., was the Defendant in the District Court
and the Appellee in the Court of Appeals.

iv
CORPORATE DISCLOSURE STATEMENT
Petitioner Ameer Siddiqui is an individual and brings
the claims in this matter on his own behalf.
Respondent NetJets Aviation, Inc. is a subsidiary of
Berkshire Hathaway, Inc.

v
RELATED CASES
There are no related cases other than the opinions
identified below in this matter:
Siddiqui v. NetJets Aviation, Inc., No. 16-23924,
United States District Court for the Southern District of
Florida. Judgment entered July 23, 2018.
Siddiqui v. NetJets Aviation, Inc., No. 18-13463.
United States Court of Appeals for the Eleventh Circuit.
Judgment entered May 31, 2019. Rehearing denied July
18, 2019.

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . i
PARTIES TO THE PROCEEDINGS BELOW . . . . .  iii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
OPINION AND ORDER BELOW  . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 2
RELEVANT STATUTORY PROVISIONS . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . . . 7
I.

Petitioner Was Wrongly Subjected to a
Heightened Burden On His Retaliation
Claims, Under Both Title VII and Section
1981  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

vii
Table of Contents
Page
II. The Circuits Are Split on the Definition of
a “Similarly Situated” Comparator . . . . . . . . . . 10
III. Petitioner Need Only Show an Inference
of Pretext to Proceed, As Set Forth in St.
Mary’s Honor Center . . . . . . . . . . . . . . . . . . . . . . 14
IV. The Courts Below Failed to Consider
Each Identi f ied Act of Reta liation,
Wrongly Defaulting to the G enera l
Discrimination Analysis  . . . . . . . . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

viii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STAT ES COU RT OF A PPEA LS FOR
T H E ELE V EN T H CI RCU I T, FI LED
MAY 31, 2019  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
FLORIDA, FILED JULY 23, 2018  . . . . . . . . . . . . 12a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS, DATED JULY 18, 2019 . . . . . . . . . . . . 53a

ix
TABLE OF CITED AUTHORITIES
Page
Cases
Aka v. Washington Hosp. Ctr.,
116 F.3d 876 (D.C. Cir. 1997) . . . . . . . . . . . . . . . . . . . 16
Alexander v. Fulton Cty.,
207 F.3d 1303 (11th Cir. 2000) . . . . . . . . . . . . . . . . . . 12
Anderson v. Liberty Lobby,
477 U.S. 242 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Burlington Northern & Santa Fe Ry. Co. v.
White,
126 S. Ct. 2405 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . 7
CBOCS West, Inc. v. Humphries,
553 U.S. 442 (2008) . . . . . . . . . . . . . . . . . . . . . . 7, 12, 22
Clark Cty. Sch. Dist. v. Breeden,
532 U.S. 268 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Cole v. Illinois,
562 F.3d 812 (7th Cir. 2009) . . . . . . . . . . . . . . . . . . . . 15
Coleman v. Donahoe,
667 F.3d 835 (7th Cir. 2012) . . . . . . . . . . . . . . . . . . . . 11
Cooper v. Southern Co.,
390 F.3d 695 (11th Cir. 2004) . . . . . . . . . . . . . . . . . . .  17

x
Cited Authorities
Page
Desert Palace, Inc. v. Costa,
539 U.S. 90 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
EEOC v. Horizon/CMS Healthcare Corp.,
220 F.3d 1184 (10th Cir. 2000) . . . . . . . . . . . . . . . . . . 11
Furnco Constr. Corp v. Waters,
438 U.S. 567 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Gilmore v. Jasper Cty. Sch. Dist.,
2012 U.S. Dist. LEXIS 91348
(M.D. Ga. July 2, 2012).  . . . . . . . . . . . . . . . . . . . . . . . 15
Hairston v. Gainesville Sun Pub. Co.,
9 F.3d 913 (11th Cir. 1993)  . . . . . . . . . . . . . . . . . . . . . 16
Hester v. Univ. of Ala. Birmingham Hosp.,
2018 U.S. Dist. LEXIS 202876
(N.D. Ala. Nov. 30, 2018)  . . . . . . . . . . . . . . . . . . . . . . 15
Holifield v. Reno,
115 F.3d 1555 (11th Cir. 1997)  . . . . . . . . . . . . . . . . . . 11
Holland v. Gee,
677 F.3d 1047 (11th Cir. 2012). . . . . . . . . . . . . . . . . . . 20
Humphries v. CBOCS West, Inc.,
474 F.3d 387 (7th Cir. 2007) . . . . . . . . . . . . . . . . . . 8, 12

xi
Cited Authorities
Page
Jones v. Gulf Coast Health Care of Del., LLC,
854 F. 3d 1261 (11th Cir. 2017) . . . . . . . . . . . . . . . . . . 10
Kautz v. Met-Pro Corp.,
412 F.3d 463 (3d Cir. 2005) . . . . . . . . . . . . . . . . . . . . . 18
Lewis v. City of Union City,
918 F.3d 1213 (11th Cir. 2019) . . . . . . . . . . . . . . . .11, 23
McDonnell Douglas Corp. v. Green,
411 U.S. 793 (1973)  . . . . . . . . . . . . . . . . . . . . . . 11-12, 14
Nat’l R.R. Passenger Corp. v. Morgan,
536 U.S. 101 (2002)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Nix v. WLCY Radio/Rahall Commc’ns,
738 F.2d 1181 (11th Cir. 1984)  . . . . . . . . . . . . . . . . . . 11
Olson v. GE Astrospace,
101 F.3d 947 (3d. Cir. 1994) . . . . . . . . . . . . . . . . . . . . . 17
Patterson v. McLean Credit Union,
491 U.S. 164 (1989)  . . . . . . . . . . . . . . . . . . . . . . . 7, 8, 23
Price Waterhouse v. Hopkins,
490 U.S. 228 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Radcliffe v. Darcy Hall Med. Inv’rs, LLC ,
2010 U.S. Dist LEXIS (S.D. Fla. Mar. 22, 2010) . . . 11

xii
Cited Authorities
Page
Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133 (2000) . . . . . . . . . . . . . . . . . . . . . . . passim
Shannon v. Bellsouth Telecomms., Inc.,
292 F.3d 712 (11th Cir. 2002) . . . . . . . . . . . . . . . . . . . 22
Smith v. Lockheed-Martin Corp.,
644 F.3d 1321 (11th Cir. 2011)  . . . . . . . . . . . . . . . . . . 21
St. Mary’s Honor Ctr v. Hicks,
509 U.S. 502 (1993) . . . . . . . . . . . . . . . . . . . . . . . .  14, 15
Tex. Dept. of Community Affairs v. Burdine,
450 U.S. 248 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . 8, 15
Thomas v. Kamtek, Inc.,
143 F. Supp. 3d 1179 (N.D. Ala. 2015) . . . . . . . . . . . . 12
Univ. of Tex. Sw. Med. Ctr. v. Nassar,
570 U.S. 338 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Wimbley v. Cashion,
588 F.3d 959 (8th Cir. 2009) . . . . . . . . . . . . . . . . . . . . 11
Woodman v. WWOR-TV, Inc.,
411 F.3d 69 (2d Cir. 2005) . . . . . . . . . . . . . . . . . . . . . . 16
Xiaoyan Tang v. Citizens Bank, N.A.,
821 F.3d 206 (1st Cir. 2016)  . . . . . . . . . . . . . . . . . . . .  17

xiii
Cited Authorities
Page
Statutes
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 1981(a) (“Section 1981”) . . . . . . . . . . . . passim
42 U.S.C. § 2000e-2(a)(1) (“Title VII”) . . . . . . . . . . passim

1
Petitioner Ameer Siddiqui respectfully petitions this
Court for a writ of certiorari to the Eleventh Circuit Court
of Appeals, to review the decision below regarding his
discrimination and retaliation claims brought under Title
VII of the Civil Rights Act of 1964 and the Civil Rights
Act of 1866 § 1981.
OPINION AND ORDER BELOW
The Opinion of the United States Court of Appeals
for the Eleventh Circuit for which Petitioner respectfully
petitions this Court for a writ of certiorari, Siddiqui
v. NetJets Aviation, Inc., No. 18-13463, is unpublished
and marked with a “DO NOT PUBLISH” notation. It is
viewable at Siddiqui v. NetJets Aviation, Inc., 773 Fed.
Appx. 562, 2019 U.S. App. LEXIS 16274, 2019 WL 2323785
(11th Cir. 2019). See Petitioner’s Appendix (“Pet. App.”)
A, 1a – 11a.
The Opinion of the United States District Court for
the Southern District of Florida, which was appealed
to the United States Court of Appeals for the Eleventh
Circuit, Siddiqui v. NetJets Aviation, Inc., No. 1623924, is unreported, but viewable at Siddiqui v. NetJets
Aviation, Inc., No. 16-23924, 2018 U.S. Dist. LEXIS
122589, 2018 WL 3541854 (S.D. Fla. July 23, 2018). See
Pet. App. B, 12a – 52a.
The Opinion of the United States Court of Appeals
for the Eleventh Circuit denying rehearing for Siddiqui
v. NetJets Aviation, Inc., No. 18-13463, is unreported. See
Pet. App. C, 53a.

2
STATEMENT OF JURISDICTION
The judgment of the United States Court of Appeals
for the Eleventh Circuit was entered on May 31, 2019,
and the Petition for Rehearing denied on July 18, 2019.
See Appendices A and C at 1a – 11a, 53a, respectively.
The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1254(1).
RELEVANT STATUTORY PROVISIONS
Title VII of the Civil Rights Act of 1964, 42 U.S.C.
§ 2000e-2(a)(1) (“Title VII”), provides in pertinent part: “It
shall be an unlawful employment practice for an employer
. . . to fail or refuse to hire or to discharge any individual,
or otherwise to discriminate against any individual
with respect to his compensation, terms, conditions, or
privileges of employment, because of such individual’s
race, color, religion, sex, or national origin.”
The Civil Rights Act of 1866, 42 U.S.C. § 1981(a)
(“Section 1981”) provides that “All persons within the
jurisdiction of the United States shall have the same
right in every State and Territory to make and enforce
contracts, to sue, be parties, give evidence, and to the
full and equal benefit of all laws and proceedings for the
security of persons and property as is enjoyed by white
citizens, and shall be subject to like punishment, pains,
penalties, taxes, licenses, and exactions of every kind,
and to no other.”

3
STATEMENT OF THE CASE
Six years ago, American Muslim pilot Ameer Siddiqui
became the target of rumors and innuendo, which his
employer believed was enough to suspend and eventually
end his employment. This Petition seeks to challenge the
rulings below which summarily dispose of Petitioner’s
claims of unlawful discrimination and retaliation, brought
under Title VII and Section 1981.
Petitioner actively worked for NetJets Aviation, Inc.
(“NetJets”) as a private pilot from 2006 until 2013; during
that seven year period, Petitioner had an exemplary
flying record.1 In January of 2013, NetJets’ Director of
Aviation Security Joseph Dalton stated that he received
an anonymous call from a crew member who expressed
concerns over political statements that Petitioner
had purportedly made. 2 Although Mr. Dalton did not
contemporaneously document or preserve a record of this
call, he reported it to Anthony Mosso, NetJets’ Labor
and Employee Relations Manager. Mr. Mosso reported
the call to then-Chief Pilot David Hyman, and the two
of them conducted follow-up interviews with other pilots
later that month. 3 These interviews resulted in a finding
by the Chief Pilot that “ultimately, all people interviewed
felt that [Petitioner] is not a threat…the general sentiment
[was] that he likes to hear himself talk, but quickly cuts off
1. Doc. 1. References herein to documents filed in the District
Court are listed as “Doc. __” and references to documents filed
in the Court of Appeals are listed by the title of the documents.
2. Doc. 42-1 at 1-2.
3. Id. at 2.

4
when asked to do so.”4 Regardless, on September 6, 2013,
Petitioner received an e-mail from NetJets, requiring
him to travel to its headquarters in Ohio for a meeting;
prior to this e-mail, Petitioner had been given no notice of
the allegations against him. Although Petitioner did not
yet know this, NetJets’ then Chief Operating Officer Bill
Noe had already made the decision to place Petitioner on
administrative leave, a full nine months after the initial
phone call that prompted the investigation into Petitioner.5
Purportedly, Mr. Noe had only recently learned of the
investigation into Petitioner in August of 2013 (which
in itself belies the purported urgency and degree of
seriousness of the allegations).6
NetJets then called the Federal Bureau of Investigation
(“FBI”) and reported Petitioner as a possible terrorist
sympathizer. After conducting its own inquiry, the FBI
informed Petitioner via letter on February 24, 2014 that
he had been cleared, and the file involving him would
be closed; Petitioner remained on administrative leave,
however, for over two more years.7 On March 2, 2015,
over two years after the initial phone call concerning
Petitioner, NetJets notified Petitioner that he needed to
appear in Ohio in front of a Crewmember Review Board
(“CRB”) relating to “inappropriate statements relating
to owners and/or violations of [NetJets’ policy regarding
harassment], including, but not limited to, derogatory
statements regarding different religions (anti-Semitic
4. Doc. 42 at 14; Doc. 42-2 at 89.
5. Doc. 42-2 at 2.
6. Appellee’s Response Brief, at 8.
7. Doc. 42-1 at 3-4; Doc. 42-2 at 85.

5
comments) and national origins.” 8 The CRB was only
scheduled, even at this late date, after Petitioner’s outside
attorney contacted NetJets on his behalf. The comments
that Petitioner was questioned about during the CRB
dated back to 2012, three years prior to the CRB and
over a year before the original anonymous complaint,
and were presented to Petitioner only in very broad and
conclusory terms which did not identify any context. 9
Petitioner stated at the CRB that he believed he was being
discriminated and retaliated against for having contacted
an attorney, and complained about the conclusory nature
of the questions presented to him which presumed fault
but without allowing him to address any underlying facts.10
Subsequent to the CRB, Petitioner filed a Charge of
Discrimination with the Equal Employment Opportunity
Commission (“EEOC”) on April 29, 2015, alleging
discrimination on the basis of religion, national origin and
retaliation.11 Petitioner remained on leave until he was later
terminated via letter dated August 11, 2016, which was
exactly 90 days after the EEOC had issued its Notice of
8. Doc. 42-2 at 105.
9. Doc. 42-2 at 110-111 (testimony of the Union Steward that
Petitioner’s CRB was highly unusual, in that the same questions
were repeatedly asked, no identifying context was given for the
accusations made, and in ten years as a Union Steward he has
never known of anyone else being kept on leave for anywhere
near as long).
10. Id. at 115-120 (questions prepared in advance and asked
of Petitioner at the CRB included “Do you feel you are able to
work effectively with other American co-workers and passengers
when you have these feelings and have made these statements?”).
11. Id. at 75-76.

6
Right to Sue regarding his Charge of Discrimination. The
termination letter informed him that his employment with
NetJets was terminated based on perceived dishonesty
during the CRB process. 12 Petitioner subsequently
received an additional termination letter, adding that
NetJets determined he had made inappropriate yet still
unidentified statements were made “on multiple occasions
prior to [his] placement on administrative leave, including
but not limited to duty tours in 2012,” four years prior to
his termination.13
Petitioner timely filed suit alleging discrimination and
retaliation under Title VII and Section 1981.14 The parties
filed cross-motions for summary judgment in the District
Court. The District Court granted NetJets’ Motion for
Summary Judgment on July 23, 2018.15 The United States
Court of Appeals for the Eleventh Circuit affirmed, by
way of decision dated May 31, 2019.16 Petitioner filed a
Petition for Rehearing, which was denied on July 18,
2019.17 Petitioner now seeks a writ of certiorari to the
Eleventh Circuit, based on the improper application of
several standards as to Petitioner’s discrimination and
retaliation claims under Title VII and Section 1981.
12. Id. at 136.
13. Id. at 143.
14. Petitioner also previously brought claims under the Age
Discrimination in Employment Act after filing a second Charge
of Discrimination, but voluntarily dismissed these prior to the
District Court’s ruling.
15. See Doc. 84; Pet. App. B at 51a – 52a.
16. Pet. App. A at 11a.
17. Pet. App. C at 53a.

7
REASONS FOR GRANTING THE PETITION
I.

Petitioner Was Wrongly Subjected to a Heightened
Burden On His Retaliation Claims, Under Both
Title VII and Section 1981

Both the District Court and the Court of Appeals
wrongly applied the “but for” standard to the analyses
they did devote to Petitioner’s retaliation claims,
sweepingly applying one standard to both the Title VII
and Section 1981 claims. See Pet. App. A at 11a; Pet. App.
B at 50a. These two separate claims warrant separate
analyses. CBOCS West, Inc. v. Humphries, 553 U.S.
442, 453-54 (2008); see also Patterson v. McLean Credit
Union, 491 U.S. 164, 211-12 (1989) (internal citations
omitted) (Brennan, J., concurring in part) (noting
history that Title VII and Section 1981 are “separate,
distinct, and independent”). The proper application of
the burden-shifting approach embraced by this Court for
these claims does not place nearly so high of a burden on
plaintiffs. Petitioner is able to present indirect evidence of
retaliation as an alternative to direct evidence under the
“but for” standard. Under the indirect method, he must
show that after opposing the employer’s discriminatory
practice only he, and not any similarly situated employee
who did not complain of discrimination, was subjected to
a “materially adverse” action even though he performed
his job in a satisfactory manner. Burlington Northern &
Santa Fe Ry. Co. v. White, 126 S. Ct. 2405, 2415 (2006);
cf. Univ. of Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338,
352 (2013) (approving a “but for” standard for analyzing
retaliation claims brought under Title VII) with CBOCS
West, Inc., 553 U.S. at 457 (affirming the recognition of
retaliation under Section 1981 by the Seventh Circuit in

8
Humphries v. CBOCS West, Inc., 474 F.3d 387, 406 (7th
Cir. 2007), which held that “We need not decide whether
Humphries has enough evidence under the direct method
because he meets the requirements of the indirect
method”); Patterson, 491 U.S. at 186-87; Tex. Dept. of
Cmty. Affairs v. Burdine, 450 U.S. 248, 253-55 (1981);
McDonnell Douglas Corp. v. Green, 411 U.S. 793, 802-03
(1973); see also Price Waterhouse v. Hopkins, 490 U.S.
228, 264 (1989) (internal citations omitted) (O’Connor, J.,
concurring) (observing that the but-for test “demands the
impossible” at times).
Utilizing the proper standard to actually analyze
Petitioner’s separate claims demonstrate the errors of
the lower courts in this matter. Petitioner asserts that
“NetJets unreasonably extended his administrative leave
in retaliation for the letter from his attorney alleging
discrimination,” which the Court of Appeals believed failed
because he did not “point to any particular decisionmaker
who was aware of the letter, and the record is unclear as
to whether an affirmative decision to extend the leave
was made.”18 Although the Appellate Court is correct
that Petitioner does not identify a specific decisionmaker
being made aware of the letter, logic allows the reasonable
inference that a letter accusing a company of employment
discrimination will reach the appropriate corporate
personnel; this is particularly true when the employee
in question has been the subject of significant internal
discussion. In fact, NetJets’ in-house counsel who directed
the investigation responded back to his attorney’s letter
shortly after it was received.19 And while the Court of
18. Pet. App. A at 10a.
19. Doc. 42-2 at 103.

9
Appeals concluded that “it is undisputed that NetJets was
in the process of scheduling the [CRB] before it received
the letter from [Petitioner’s] attorney,” 20 this conclusion
ignores the dramatic difference in NetJets’ action toward
Petitioner before versus after receiving that letter. The
fact that NetJets eventually took action in scheduling the
CRB might have been a compelling point were it not for
the fact that NetJets had already delayed the scheduling
of the CRB for well over a year prior to receiving the
letter from Petitioner’s counsel, and only ceased this delay
after receipt of that letter. When the CRB did occur, it
was replete with conclusory questions and did not afford
Petitioner the same right to respond as others received.
Next, the Court of Appeals concluded that NetJets’
termination of Petitioner on the ninetieth day after the
EEOC issued its right to sue letter cannot be evidence
of discrimination, because receipt of a Notice of Right
to Sue is not protected activity. As noted in Petitioner’s
previous filings, it is correct that the receipt of the Notice
of Right to Sue does not constitute protected activity;
Petitioner has never argued that it does. See Clark Cty.
Sch. Dist. v. Breeden, 532 U.S. 268, 273 (2001) (finding no
connection between the receipt of a Notice of Right to Sue
and the plaintiff’s transfer three months later). Rather,
the oddly identical timing between the expiration of the
Notice of Right to Sue and Petitioner’s termination creates
the appearance, and reasonable inference, that NetJets
intentionally waited until it thought it was safe from a
lawsuit, then terminated Petitioner. These facts, combined
with the disjointed and disorganized disciplinary process
to which Petitioner was subjected throughout the three
years he remained on administrative leave, are exactly
20. Id.

10
the kinds of circumstantial evidence sufficient to create
a genuine issue of material fact of a causal connection.
See Desert Palace, Inc. v. Costa, 539 U.S. 90, 100 (2003);
see also Reeves v. Sanderson Plumbing Prods., Inc., 530
U.S. 133, 147 (2000) (evidence that a defendant’s proffered
reason is “unworthy of credence” constitutes “one form of
circumstantial evidence”).
The coincidental timing of Petitioner’s termination
after the expiration of the Notice of Right to Sue, the
extended delays in his administrative leave, and NetJets’
rapid scheduling of the CRB after Petitioner’s protected
activity of hiring counsel to assert discrimination, satisfy
the requirement that the protected activity and negative
employment action are not “wholly unrelated.” Jones
v. Gulf Coast Health Care of Del., LLC, 854 F.3d 1261,
1271 (11th Cir. 2017) (internal citations omitted). And,
neither court below even addressed that Petitioner also
made a verbal complaint during the CRB, stating that
the nature of the conclusory and presumptive questions,
without ample opportunity to respond given any context,
constituted discrimination and retaliation for having hired
an attorney.21 To survive summary judgment on his Section
1981 and Title VII retaliation claims, Petitioner’s burden
is not to prove his case as he would before a jury; rather,
he need only demonstrate the existence of a genuine issue
of material fact. His evidence and allegations do just that.
II. The Circuits Are Split on the Definition of a
“Similarly Situated” Comparator
The Circuits are split on the definition of a “similarly
situated” comparator employee, and the split is wide. As
21. Doc. 42-2 at 115-120.

11
most eloquently summarized recently by the Eleventh
Circuit, “It’s a mess.” Lewis v. City of Union City, 918
F.3d 1213, 1218 (11th Cir. 2019). The range varies from
“nearly identical” 22 to “same or similar” 23 to “flexible” and
inherently “factual”24 to “similarly situated in all material
respects.” 25
In evaluating evidence of comparators, employees need
not show an exact match in positions or even supervisors.
“[W]hile a factor to consider in determining whether
employees are ‘similarly situated’ may be whether they
had the same supervisor…the facts of each case are unique
and may require a different focus.” Radcliffe v. Darcy Hall
Med. Inv’rs, LLC, 09-81063-CIV, 2010 U.S. Dist. LEXIS
152792, at *7 (S.D. Fla. Mar. 22, 2010) (internal citations
omitted). The method of inquiry established by McDonnell
22. Nix v. WLCY Radio/Rahall Commc’ns, 738 F.2d 1181,
1185 (11th Cir. 1984) (internal citations omitted).
23. Holifield v. Reno, 115 F.3d 1555, 1562 (11th Cir. 1997).
24. Coleman v. Donahoe, 667 F.3d 835, 846 (7th Cir. 2012)
(internal citations omitted).
25. Lewis, 918 F.3d at 1226 (internal citations omitted).
There are more, though without such catchy labels: the Eighth
Circuit notes that “the low-threshold standard [for determining
at the prima facie stage whether employees are similarly situated]
‘more accurately reflects Supreme Court precedent.’” Wimbley
v. Cashion, 588 F.3d 959, 962 (8th Cir. 2009) (internal citations
omitted). Similarly, the Tenth Circuit held that “while evidence
that a defendant treated a plaintiff differently than similarlysituated employees is certainly sufficient to establish a prima facie
case, it is ‘[e]specially relevant’ to show pretext if the defendant
proffers a legitimate, nondiscriminatory reason for the adverse
employment action.” EEOC v. Horizon/CMS Healthcare Corp., 220
F.3d 1184, 1195 n.6 (10th Cir. 2000) (internal citations omitted).

12
Douglas was “never intended to be rigid, mechanized, or
ritualistic.” Furnco Constr. Corp. v. Waters, 438 U.S. 567,
577, 98 S. Ct. 2943, 2949, 57 L.Ed.2d 957, 967 (1978); see
also Humphries, 474 F.3d at 406, affirmed, CBOCS West,
Inc., 553 U.S. at 457.
As applied to this matter, although it may be one
relevant factor, whether Mr. Noe was the decisionmaker
in all relevant examples of similar alleged conduct does
not end the comparator inquiry. And, although the law
requires an appropriate comparator to be similarly
situated in relevant aspects, “the law does not require that
a ‘similarly situated’ individual be one who has engaged
in the same or nearly identical conduct as the disciplined
plaintiff.” Alexander v. Fulton Cty., 207 F.3d 1303, 1334
(11th Cir. 2000) (internal citations omitted). Rather, the
relevant inquiry is whether the comparators engaged
in sufficiently comparable conduct, and “the employer
subjected them to different employment policies.” Thomas
v. Kamtek, Inc., 143 F. Supp. 3d 1179, 1182 (N.D. Ala.
2015) (internal citations omitted). In this case, Petitioner’s
proffered comparators demonstrate that (1) he was
subjected to a different disciplinary process than other
similarly situated individuals; and (2) NetJets’ claim that
it was simply unable to conduct a CRB for Petitioner in a
timely manner lacks credibility, and at a minimum creates
a genuine issue of material fact.
Each comparator’s disciplinary issue arose during
the time relevant to Petitioner’s claims. Each time, the
comparator’s issue was addressed quickly, sent to a CRB
and fully resolved in under five months, and resulted only
in a brief suspension. By comparison, Petitioner’s case
(1) went unresolved for nearly three years, (2) involved

13
a report to the FBI of possible terrorist sympathies,
(3) still involved no action for a lengthy time even after
NetJets knew the FBI closed its inquiry, and (4) ultimately
resulted in Petitioner’s termination for reasons unrelated
to purported security concerns. Although Petitioner’s
comparators were accused of substantially similar
misconduct, including making inappropriate statements
on the job and creating safety concerns for those flying
with them, their matters were subjected to an entirely
different process. In those cases, NetJets took action
promptly to efficiently report and resolve the comparators’
disciplinary incidents, which stands in stark contrast
to the inexplicably drawn out and cumbersome process
to which Petitioner was subjected. In addition to these
demonstrated inconsistencies, the drastic difference in the
timeline and outcome of Petitioner’s matter compared to
the comparators substantially undercuts the credibility
of NetJets’ assertion that it simply could not find time to
conduct a CRB for Petitioner at any point over three years.
See Reeves, 530 U.S. at 146-48 (“[p]roof that the defendant’s
explanation is unworthy of credence is simply one form of
circumstantial evidence”). Each comparator’s disciplinary
proceedings took place during the same span of time that
Petitioner was on administrative leave, waiting for his
own CRB to occur. Accordingly, contrary to the Court
of Appeals’ finding that Petitioner failed to adequately
support his assertion “that NetJets[’s] proffered reasons
for the delay are disingenuous,” Petitioner’s comparator
evidence demonstrates the simple fact that, despite those
‘contentious negotiations,’ NetJets remained quite capable
of conducting CRBs and resolving disciplinary matters
during the same timeframe, on matters it wanted to

14
address. 26 The Court of Appeals’ assertion that although
“evidence indicates that NetJets held [CRBs] for Siddiqui’s
comparators more quickly, Siddiqui has not created a
genuine issue of fact as to whether NetJets’ delay occurred
in a discriminatory manner” subjects Petitioner to a
higher burden than the law requires, and is inconsistent
with the authority of this Court.
III. Petitioner Need Only Show an Inference of Pretext
to Proceed, As Set Forth in St. Mary’s Honor Center
In employment discrimination cases involving
circumstantial evidence, courts employ the burdenshifting framework established in McDonnell Douglas,
411 U.S. at 802-05. Under that framework, plaintiffs
must first present a prima facie case of discrimination.
Id. The burden then shifts to the employer to articulate
one or more legitimate, nondiscriminatory reasons for
its actions. Id. If it does, the burden shifts back to the
plaintiff, to produce evidence that the employer’s proffered
reasons are pretext for unlawful discrimination. Id.
The Court of Appeals held that Petitioner here failed to
carry his burden to establish pretext, because he failed
to show both that the offered reason was false, “and that
discrimination was the real reason” for his employer’s
actions. 27 Petitioner respectfully submits that the Court of
Appeals erred in requiring this higher showing of pretext
which is unmerited at the summary judgment stage.
The Court of Appeals was correct that, to prevail at
trial, a plaintiff must successfully convince a jury that
the employer acted pursuant to discriminatory motives.
26. Pet. App. A at 7a – 8a.
27. Id. at 3a – 4a.

15
However, the Supreme Court case cited by the Appellate
Court for the proposition that Petitioner must prove both
falsity and intentional discrimination “[does] not address
a plaintiff’s burden at the summary judgment stage.”
Gilmore v. Jasper Cty. Sch. Dist., No. 5:11-CV-21 (MTT),
2012 U.S. Dist. LEXIS 91348, at *8 n.5 (M.D. Ga. July
2, 2012). Instead, St. Mary’s Honor Center addresses
whether an employee is “entitled to judgment as a matter of
law when the factfinder has concluded that the employer’s
nondiscriminatory reason is false, but nevertheless found
that the employer did not intentionally discriminate
against the plaintiff.” Id.; see also St. Mary’s Honor Ctr.
v. Hicks, 509 U.S. 502, 517, 113 S. Ct. 2742, 2752, 125 L.
Ed. 2d 407, 423 (1993). To survive a motion for summary
judgment, “the ultimate question is whether the employer
intentionally discriminated ... it is permissible for the trier
of fact to infer the ultimate fact of discrimination from
the falsity of the employer’s explanation.” Reeves, 530
U.S at 148; see also Burdine, 450 U.S. at 256 (although
conclusory allegations of discrimination, without more, are
insufficient, plaintiffs may prove pretext “either directly
by persuading the court that a discriminatory reason more
likely motivated the employer[,] or indirectly by showing
that the employer’s proffered explanation is unworthy
of credence”). A plaintiff survives summary judgment
if he “presents a convincing mosaic of circumstantial
evidence that creates a triable issue” from which a jury
could infer intentional discrimination. Hester v. Univ.
of Ala. Birmingham Hosp., No. 2:16-cv-1899-JEO, 2018
U.S. Dist. LEXIS 202876, at *15-16 (N.D. Ala. Nov. 30,
2018); see also Cole v. Illinois, 562 F.3d 812, 815 (7th
Cir. 2009) (internal citations omitted) (stating that an
employee may prevail “either by ‘showing an admission
of discrimination” or by “constructing a convincing
mosaic of circumstantial evidence that allows a jury to

16
infer intentional discrimination by the decisionmaker”);
Hairston v. Gainesville Sun Pub. Co., 9 F.3d 913, 921 (11th
Cir. 1993) (burden at summary judgment “is not to show
by a preponderance of the evidence that the reasons stated
were pretext [;] rather, [his] burden…is met by introducing
evidence that could form the basis for a finding of facts,
which…could allow a jury to find” he had established
pretext); Woodman v. WWOR-TV, Inc., 411 F.3d 69, 77
(2d Cir. 2005) (“the law does not equate ‘knowledge’ with
certitude, nor does it demand direct proof of knowledge.
A jury may reasonably infer a defendant’s knowledge
from the totality of circumstantial evidence”); Aka v.
Washington Hosp. Ctr., 116 F.3d 876, 882 (D.C. Cir. 1997)
(“a plaintiff is entitled to survive summary judgment, and
judgment as a matter of law, if there is sufficient evidence
to demonstrate the existence of a genuine issue of fact as
to the truth of each of the employer’s proffered reasons
for its challenged actions”).
Although Petitioner must demonstrate the existence of
a triable issue, his burden to produce additional evidence
establishing discrimination is not high at the summary
judgment stage: “credibility determinations, the weighing
of the evidence, and the drawing of legitimate inferences
from the facts are jury functions, not those of the judge.”
Reeves, 530 U.S. at 150 (internal citations omitted);
Anderson v. Liberty Lobby, 477 U.S. 242, 248 (1986)
(whatever form it takes, if circumstantial evidence is
sufficient to raise a reasonable inference that the employer
discriminated, summary judgment is improper).
Following Petitioner’s showing of a prima facie
case, NetJets asserted three purportedly legitimate,
nondiscriminatory reasons for the adverse actions taken

17
against Petitioner: (1) it placed Petitioner on leave because
of ‘security concerns’ regarding comments he allegedly
made years earlier, which had not been previously
reported; (2) it kept him on leave for an extended and
unprecedented amount of time, at first because it was
awaiting the FBI’s conclusion (which came only months
into Petitioner’s three year leave), and later because it was
busy with changing management and union negotiations;
and (3) it terminated Petitioner because it determined
he lied during his CRB, when he was vaguely questioned
about comments he allegedly made years beforehand in
still unidentified circumstances, and he had therefore
violated NetJets’ policies. 28 Petitioner placed the veracity
of NetJets’ explanations at issue, pointing both to
substantial inconsistencies and weaknesses in each of the
proffered reasons, as well as circumstantial evidence of
intentional discrimination. See Cooper v. Southern Co., 390
F.3d 695, 725 (11th Cir. 2004) (internal citations omitted)
(a plaintiff may show that an employer’s decisions were
pretextual by revealing “such weaknesses, implausibilities,
inconsistencies, incoherencies, or contradictions in the
employer’s proffered legitimate reasons for its actions
that a reasonable factfinder could find them unworthy of
credence”); see also Reeves, 530 U.S. at 143; Xiaoyan Tang
v. Citizens Bank, N.A., 821 F.3d 206, 221 (1st Cir. 2016)
(internal citations omitted) (in the retaliation context,
pretext may be shown “through ‘such weaknesses,
implausibilities, inconsistencies, incoherencies, or
contradictions in the employer’s proffered legitimate
reasons for its actions that a reasonable factfinder could
rationally find them unworthy of credence’”); Olson v.
GE Astrospace, 101 F.3d 947, 951-52 (3d. Cir. 1994) (a
28. Doc. 44 at 10-13.

18
reasonable factfinder can infer pretext if the factfinder
can “infer that the employer did not act for the asserted
non-discriminatory reasons”); Kautz v. Met-Pro Corp., 412
F.3d 463, 467 (3d Cir. 2005) (internal citations omitted)
(“to avoid summary judgment … plaintiff’s evidence …
must allow a factfinder reasonably to infer that each of the
employer’s proffered non-discriminatory reasons … was
either a post hoc fabrication or otherwise did not actually
motivate the employment action”).
The relevant evidence shows the following:
• Despite alleging that its actions were in response to
serious security concerns, NetJets failed to ground
Petitioner for a full nine months after receiving the
initial complaint. Petitioner continued flying, and
was even scheduled by NetJets for international
flights during this time. 29
• NetJets’ President/CEO was not notified of any
purported security concerns about Petitioner until
nine months after the initial complaint. 30
• Once the relevant decision makers were notified
of the anonymous complaint about Petitioner, they
reported him to the FBI. None of the statements
that Petitioner is accused of making, regardless
of how distasteful the Court may find them, were
violent or threatening or evidenced support of any
terrorist organization. Petitioner was not removed
from administrative leave, however, even after
29. Doc. 42 at 14; Doc. 42-2 at 89.
30. See Appellee’s Answer Brief, at 27-28.

19
he was cleared by the FBI and the FBI closed its
inquiry into him. 31
• Although NetJets claims it was not able to conduct
Petitioner’s CRB for multiple years because
of changes in management and ongoing union
negotiations, Petitioner demonstrated that NetJets
did conduct multiple other CRBs and fully resolve
other disciplinary matters during this same time,
and significantly faster than Petitioner’s matter. 32
• As demonstrated by the short duration of Petitioner’s
eventual CRB, NetJets’ assertion that it could not
set aside a single afternoon over the course of over
two years to resolve Petitioner’s allegedly serious
matter lacks credibility. 33
• NetJets’ CEO admitted in his deposition that,
despite having “no idea” and “no way to know” what
level of risk Petitioner may have posed, he acted,
at least in part, based on “the amount of smoke”
created by the optics of the allegations. 34
Despite the foregoing evidence, the Court of Appeals
utilized an improperly strict standard for the summary
judgment stage, finding that Petitioner failed to identify
facts sufficient to create a triable issue on the question of
31. Doc. 42-1 at 3-4.
32. Doc. 42-2 at 179-203.
33. Doc. 42-1 at 5-6.
34. Doc. 42-2 at 167.

20
NetJets’ intent. 35 The Court’s opinion correctly concedes
that “NetJets’s arguably ‘ham-handed investigation’ and
unreasonable delay in resolving the situation could perhaps
lead a jury to conclude that NetJets’s asserted reasons
for those problems…were pretexts for something,” 36 but
stopped short of seeing a fact issue, instead asserting
Petitioner failed to put forth any evidence “apart from
his proffered comparators” to support an inference of
discrimination. The Court of Appeals failed to properly
consider the “convincing mosaic of circumstantial
evidence” as put forth by Petitioner. See Holland v. Gee,
677 F.3d 1047, 1056 (11th Cir. 2012) (internal citations
35. At multiple points in its Opinion, the Court of Appeals
found Petitioner’s arguments fell short because he failed to identify
who specifically made certain decisions. For example, regarding
the delay in Petitioner’s CRB, the Court dismissed that evidence
because “Siddiqui has not created a genuine issue of fact…given
the lack of evidence concerning who, if anyone, affirmatively
decided to delay” his proceeding. Pet. App. A. Although the
question of decision makers is one relevant factor in comparator
and retaliation analyses, the Court of Appeals cited no authority
which justifies imposing a burden on Petitioner at this stage to
specifically identify any one individual who delayed proceedings.
36. Pet. App. A at 6a; see also Appellant’s Brief in Chief at
10 (NetJets admittedly selected the most “management friendly”
witnesses to interview, and did not interview the pilot who
flew with Petitioner the most), 12 (NetJets’ CEO admitted that
Petitioner’s personal trips to Pakistan to visit family would not
present any business-related issues, but NetJets included those
trips in its investigation anyway), and 14 (the Union for pilots like
Petitioner received no information about the allegations against
Petitioner like it usually does); Doc. 42-2 at 37-38 (NetJets shifted
its reasoning for its actions from the belated “security concern” to
vague and unidentified comments purportedly about Jewish and
Palestinian individuals).

21
omitted); Smith v. Lockheed-Martin Corp., 644 F.3d 1321,
1328 (11th Cir. 2011) (“the plaintiff will always survive
summary judgment if he presents circumstantial evidence
that creates a triable issue concerning the employer’s
discriminatory intent”).
IV. The Courts Below Failed to Consider Each
Identified Act of Retaliation, Wrongly Defaulting
to the General Discrimination Analysis.
The District Court and the Appellate Court both
found Petitioner’s retaliation claims under Title VII and
Section 1981 to fail, ruling that he did not adequately
demonstrate causation. See Pet. App. A at 11a; Pet. App.
B at 49a – 51a. However, they failed to address each act
he raised in this regard, and instead deferred to their
own previous discrimination analyses. The District Court,
as the entirety of its analysis of pretext for Petitioner’s
retaliation claims, stated only that “for the reasons
discussed above, even if Plaintiff could establish a prima
facie case of retaliation, he cannot show that NetJets’
reasons for its action were pretextual. Consequently,
NetJets’ motion for final summary judgment is granted.”
Pet. App. B at 51a. The Appellate Court allocated slightly
more space to its analysis, with its applied reasoning as
to each aspect it did choose to address of Petitioner’s
identified acts supporting retaliation totaling just over
one page. See Pet. App. A at 11a. Courts, however, need
analyze retaliation claims as exactly what they are:
separate and independent causes of action, thereby
meriting separate and independent analysis. See, e.g.,
Nat’l R.R. Passenger Corp. v. Morgan, 536 U.S. 101,
114 (2002) (“[e]ach incident of discrimination and each
retaliatory adverse employment decision constitutes a
separate actionable ‘unlawful employment practice’”).

22
In order to show causation, Petitioner need only
show “that the protected activity and the adverse actions
were not wholly unrelated”; each aspect of Petitioner’s
retaliation argument is therefore addressed briefly below.
Shannon v. Bellsouth Telecoms, Inc., 292 F.3d. 712 292
(11th Cir 2002) (internal citations omitted). Petitioner
identifies four acts as the basis of his retaliation claims:
(1) his attorney sent a letter to NetJets while he was on
administrative leave, alleging discrimination, and shortly
thereafter NetJets finally commenced the CRB, albeit
with conclusory questions regarding allegations that went
back several years, and without providing Petitioner any
context for the previously uncommunicated allegations;37
(2) Petitioner complained during the CRB that he felt
he was being discriminated against, and specifically
retaliated against, for having hired an attorney; 38
(3) he filed a Charge of Discrimination shortly after the
CRB;39 and (4) after three years on administrative leave,
Petitioner was terminated on the ninetieth day after the
EEOC issued him a Notice of Right to Sue, leading to a
reasonable inference that NetJets believed it was in the
clear as to legal action by Petitioner (in reality, it simply
had not been served with the lawsuit yet).40
The failure of the courts below to analyze Petitioner’s
retaliation claims on their own merits, as well as the
failure to consider each act identified by Petitioner as
supporting his retaliation claims, contradicts the prior
rulings of this Court. See CBOCS, 533 U.S. at 453-54;
37. Doc. 42-2 at 115-120.
38. Id.
39. Id. at 75-76.
40. Id. at 143.

23
Patterson, 491 U.S. at 201-12. Accordingly, Petitioner
respectfully requests that this Court grant this Petition
and consider the matter on the merits.
CONCLUSION
A pilot with an exceptional performance record was
sidelined for three years, then terminated, with little to
no explanation or opportunity to respond. The reason
given that prompted these actions: he’s Muslim, and he
occasionally traveled to Pakistan on his personal time to see
family. His fellow pilots (even though the employer handpicked the most “management friendly” ones to interview)
agreed that while Petitioner likes to hear himself talk,
he’s “harmless”; the FBI closed its inquiry, which it only
opened at the request of Petitioner’s employer, after just
a few months. But the CEO insisted the optics were bad
and that he couldn’t “get over the amount of smoke that
was created to be able to just willfully release [Petitioner]
back into the environment” to do his job again. 41 So
this American turned to the courts, trusting that the
legal system would treat him fairly. Instead, his claims
received abbreviated or absent analyses, with conjecture
and conclusions drawn by judges instead of a jury. And
the lower courts minimized the multiple comparators he
identified who received better treatment, because they
weren’t the same in “all” respects.42
Petitioner asks that this Court grant this Petition, so
that his case may be examined on its merits and the law
instead of by the “amount of smoke.”
41. Doc. 42-2 at 167.
42. Pet. App. A at 5a; Lewis, 918 F.3d at 1218.

24
Respectfully submitted,
Christina A. Jump
Counsel of Record
Charles D. Swift
Leila E. Mustafa
Constitutional Law Center
for Muslims in A merica
833 East Arapaho Road, Suite 102
Richardson, TX 75081
(972) 914-2507
cjump@clcma.org
Attorneys for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT, FILED MAY 31, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-13463
Non-Argument Calendar
D.C. Docket No. 1:16-cv-23924-KMW
AMEER SIDDIQUI,
Plaintiff-Appellant,
versus
NETJETS AVIATION, INC.,
Defendant-Appellee.
Appeal from the United States District Court
for the Southern District of Florida.
May 31, 2019, Decided
Before NEWSOM, BRANCH, and JULIE CARNES,
Circuit Judges.
PER CURIAM:
Ameer Siddiqui appeals the district court’s grant
of summary judgment in favor of his former employer,

2a
Appendix A
NetJets Aviation, Inc. First, Siddiqui, a Muslim of
Pakistani descent, argues that the district court erred
in granting summary judgment for NetJets on his
discrimination claims under 42 U.S.C. § 2000e-2(a)(1)
and 42 U.S.C. § 1981, based on its finding that he failed
to show that NetJets’s proffered reasons for placing him
on administrative leave, unreasonably extending that
leave, and ultimately terminating him were pretexts
for discrimination. Second, Siddiqui argues that the
district court erred in granting summary judgment
for NetJets on his retaliation claims under the same
statutory provisions, based on its finding that he did not
demonstrate causation between any protected activity and
an adverse employment action. We agree with the district
court—Siddiqui has failed to demonstrate a genuine issue
of material fact as to either discrimination or retaliation;
accordingly, summary judgment in NetJets’s favor is
appropriate.
The facts are known to the parties; we repeat them
here only as necessary to aid in our analysis.
I
We review a grant of summary judgment de novo,
viewing all facts in the record in the light most favorable
to the nonmovant and drawing all inferences in his favor.
Frederick v. Sprint/United Mgmt. Co., 246 F.3d 1305,
1311 (11th Cir. 2001). Summary judgment is appropriate
where “there is no genuine dispute as to any material fact.”
Fed. R. Civ. P. 56(a). To overcome a motion for summary
judgment, the nonmoving party must present more than

3a
Appendix A
a scintilla of evidence supporting his position—rather,
“there must be enough of a showing that the jury could
reasonably find for that party.” Brooks v. Cty. Comm’n
of Jefferson Cty., 446 F.3d 1160, 1162 (11th Cir. 2006)
(citation omitted).
Looking first to Siddiqui’s discrimination claims,
Title VII prohibits an employer from intentionally
discriminating against an employee based on his race,
religion, or national origin. See 42 U.S.C. § 2000e-2(a)(1).
Similarly, 42 U.S.C. § 1981 protects employees against
racial discrimination. See 42 U.S.C. § 1981(a); see also
Standard v. A.B.E.L. Servs. Inc., 161 F.3d 1318, 1330
(11th Cir. 1998). Section 1981 and Title VII discrimination
claims are analyzed under the same framework. Standard,
161 F.3d at 1330.
When an employee’s discrimination claim is based on
circumstantial evidence, we generally use the burdenshifting framework established in McDonnell Douglas
Corp. v. Green, 411 U.S. 792, 802-05, 93 S. Ct. 1817, 36 L.
Ed. 2d 668 (1973). Under this framework, a plaintiff must
present a prima facie case of discrimination. Alvarez v.
Royal Atl. Developers, Inc., 610 F.3d 1253, 1264 (11th Cir.
2010). Then, the burden shifts to the employer to articulate
one or more legitimate, nondiscriminatory reasons for
its action. Id. If it does so, the burden shifts back to the
plaintiff to produce evidence that the employer’s proffered
reasons are a pretext for discrimination. Id. A legitimate
nondiscriminatory reason proffered by the employer is
not a “pretext for discrimination unless it is shown both
that the reason was false, and that discrimination was

4a
Appendix A
the real reason.” St. Mary’s Honor Ctr. v. Hicks, 509
U.S. 502, 515, 113 S. Ct. 2742, 125 L. Ed. 2d 407 (1993)
(quotation marks omitted). “The court must, considering
all the evidence, ascertain whether the plaintiff has cast
doubt on the defendant’s proffered nondiscriminatory
reasons sufficient to allow a reasonable factfinder to
determine that the defendant’s proffered legitimate
reasons were not what actually motivated its conduct.”
Silvera v. Orange Cty. Sch. Bd., 244 F.3d 1253, 1258
(11th Cir. 2001) (quotation marks omitted). An employee
must meet his employer’s proffered reason “head on and
rebut it.” Chapman v. AI Transp., 229 F.3d 1012, 1030
(11th Cir. 2000) (en banc). When an employer asserts
misconduct by an employee as the legitimate reason for
its action, the pretext inquiry focuses on the employer’s
beliefs and whether the employer was dissatisfied with
the employee for nondiscriminatory reasons, “even if
mistakenly or unfairly so.” Alvarez, 610 F.3d at 1266; see
also Elrod v. Sears, Roebuck & Co., 939 F.2d 1466, 1470
(11th Cir. 1991) (noting that inquiry is not whether the
employee was indeed guilty of misconduct but whether
the employer in good faith believed so, and whether this
belief was the reason for the termination).
In Flowers v. Troup County, Georgia, School District,
for example, we held that the plaintiff had not offered
sufficient evidence of pretext to allow a reasonable jury
to infer that the school district’s true motivation for
terminating him was racially discriminatory. 803 F.3d
1327, 1337-38 (11th Cir. 2015). We explained that the
school district’s “ham-handed investigation and actions
singling out” the plaintiff could have led a reasonable

5a
Appendix A
jury to conclude that the superintendent “had it in” for
the plaintiff from the start. Id. at 1338. Yet because the
plaintiff offered no evidence “that the investigation was
pretext of discrimination on the basis of his race,” we
held that “[e]ven if [the superintendent’s] purported
explanation for his decision to fire [the plaintiff] had
been a bald-faced lie,” the plaintiff’s claims still could not
survive summary judgment. Id. at 1339. “Put frankly,” we
explained, “employers are free to fire their employees for
‘a good reason, a bad reason, a reason based on erroneous
facts, or for no reason at all, as long as its action is not
for a discriminatory reason.’” Id. at 1338 (quoting Nix
v. WLCY Radio/Rahall Commc’ns, 738 F.2d 1181, 1187
(11th Cir. 1984)).
To the extent that an employee seeks to show
discrimination via disparate treatment of comparators,
those individuals must be “similarly situated in all
material respects.” Lewis v. City of Union City, 918 F.3d
1213, 1218 (11th Cir. 2019) (en banc). The analysis of
comparators should be conducted at the prima facia stage
of McDonnell Douglas’s burden-shifting framework,
rather than during the pretext stage. Id. Nevertheless,
“[e]vidence necessary and proper to support a plaintiff’s
prima facie case may of course be used, later as it were,
to demonstrate that the defendant’s explanation for its
conduct was pretextual.” Id. at 1223 n.9. We must also
keep in mind that differences in treatment of different
comparators by different decisionmakers can rarely be
the basis for a viable discrimination claim. Silvera, 244
F.3d at 1261 n.5.

6a
Appendix A
Turning to Siddiqui’s case, even if we were to assume
that he has shown that NetJets’s reasons for placing him
on administrative leave and extending his leave were
false, that does not necessarily entitle him to get past
summary judgment. See Alvarez, 610 F.3d at 1264.1 Like
the school district in Flowers, NetJets’s arguably “hamhanded investigation” and unreasonable delay in resolving
the situation could perhaps lead a jury to conclude
that NetJets’s asserted reasons for those problems—
security concerns, negotiations, and changes in senior
management—were pretexts for something. See 803
F.3d at 1338. But Siddiqui does not point to any evidence
in the record, apart from his proffered comparators,
that would support an inference that the real reason for
either the initial investigation or the ensuing delay was
discrimination on the basis of his race, religion, or national
origin. See id.; St. Mary’s Honor Ctr., 509 U.S. at 514-15.
First, looking to President and Chief Operating
Officer Bill Noe’s initial decision to place Siddiqui on
administrative leave, the question is not whether Noe had
good reasons for his decision but rather whether Noe had
a nondiscriminatory reason for his decision, even if that
reason was mistaken or unfair. See Alvarez, 610 F.3d at
1266. In support of his contention that Noe’s decision was
discriminatory, Siddiqui points to Noe’s statement that he
had reviewed Siddiqui’s trips to Pakistan before making
his decision. Noe testified, however, that whether Siddiqui
1. Like the district court, we assume for argument’s sake that
Siddiqui established a prima facie case, and thus we address any
claims concerning comparators at the pretext stage. See Lewis, 918
F.3d at 1223 n.9.

7a
Appendix A
had traveled to Pakistan “didn’t have an impact” on his
decision—he reviewed the trips because they were among
the information given him by pilots who had complained
about Siddiqui’s “extreme[ly] anti-Semit[ic]” comments
and other statements that had made them “uneasy” and
“nervous.” We also note that, to the extent that Siddiqui
relies on his comparator evidence to provide an inference
of discrimination, Noe was not the decisionmaker in any of
the suspensions of Siddiqui’s proffered comparators. See
Silvera, 244 F.3d at 1261 n.5 (“[D]ifferences in treatment
by different . . . decision makers can seldom be the basis
for a viable claim of discrimination.”).
Second, as to the delay in scheduling Siddiqui’s
crewmember review board proceeding, which prolonged
his administrative leave for three years, Siddiqui does
not allege—and the record does not reveal—who made
that decision. Siddiqui simply asserts that NetJets’s
proffered reasons for the delay are disingenuous and that
the decision was based instead on “rumors and smoke.”
Br. of Appellant at 18. NetJets responds that during that
delay it was awaiting the results of the FBI’s investigation
of Siddiqui and that its management was then embroiled
in contentious negotiations with both the pilots’ and flight
attendants’ unions. Although the evidence indicates that
NetJets held crewmember review board proceedings for
Siddiqui’s comparators more quickly, Siddiqui has not
created a genuine issue of fact as to whether NetJets’s
delay occurred in a discriminatory manner, given the
lack of evidence concerning who, if anyone, affirmatively
decided to delay Siddiqui’s proceeding. See Chapman,
229 F.3d at 1030. Therefore, Siddiqui has not rebutted
NetJets’s explanation head-on. See id.

8a
Appendix A
Third, as to his eventual termination, Siddiqui has not
provided any evidence to support a finding that NetJets’s
proffered reason for firing him was false. See St. Mary’s
Honor Ctr., 509 U.S. at 515. Again, the question is not
whether the crewmember review board wrongly concluded
that Siddiqui made inappropriate remarks and lied about
it. The question is whether Vice President Alan Bobo, who
did not participate in the proceeding, based his decision
on a review of the proceeding notes and, in good faith,
believed that Siddiqui had done so. See Elrod, 939 F.2d at
1470; Alvarez, 610 F.3d at 1266. The undisputed evidence
shows that, in making the decision to terminate Siddiqui,
Bobo relied on the review because he “trust[s] the folks
that are running the CRB investigations and that’s why
they have to provide [him] a summary.” Because Siddiqui
provides no evidence disputing this explanation, he has not
raised a genuine question of fact as to whether NetJets’s
proffered reason for his termination was pretext for
discrimination. See St. Mary’s Honor Ctr., 509 U.S. at 515.
Siddiqui’s argument that the district court failed to
resolve all inferences in his favor, improperly weighed
the evidence, and made credibility determinations is
unavailing because he has not presented evidence to
support a finding that NetJets’s reasons for placing him
on administrative leave, extending his leave period, and
eventually terminating him were pretextual and that
discrimination was the real reason. Accordingly, we affirm
the entry of summary judgment in NetJets’s favor on
Siddiqui’s discrimination claims.

9a
Appendix A
II
Title VII also prohibits an employer from retaliating
against an employee for opposing an unlawful employment
practice. 42 U.S.C. § 2000e-3(a). And while 42 U.S.C.
§ 1981 does not expressly protect individuals from
retaliation, both the Supreme Court and this Court have
interpreted § 1981 as prohibiting retaliation. See CBOCS
W., Inc. v. Humphries, 553 U.S. 442, 451-52, 128 S. Ct.
1951, 170 L. Ed. 2d 864 (2008); Andrews v. Lakeshore
Rehab. Hosp., 140 F.3d 1405, 1412-13 (11th Cir. 1998). As
in the discrimination context, Section 1981 and Title VII
retaliation claims are analyzed under the same framework.
Standard, 161 F.3d at 1330.
To make out a prima facie case of retaliation, a
plaintiff must show that: “(1) he engaged in a statutorily
protected activity; (2) he suffered an adverse employment
action; and (3) he established a causal link between the
protected activity and the adverse action.” Brown v. Ala.
Dep’t of Transp., 597 F.3d 1160, 1181 (11th Cir. 2010)
(quoting Bryant v. Jones, 575 F.3d 1281, 1307-08 (11th Cir.
2009)). If the plaintiff does so, and the employer proffers
a legitimate, nondiscriminatory reason for its actions,
then the plaintiff must show that the employer’s reason is
pretextual. Id. at 1181-82. Ultimately, the employee must
prove that “the desire to retaliate was the but-for cause
of the challenged employment action.” Univ. of Tex. Sw.
Med. Ctr. v. Nassar, 570 U.S. 338, 352, 133 S. Ct. 2517,
186 L. Ed. 2d 503 (2013).
For the purposes of a retaliation claim, a formal
complaint of discrimination constitutes statutorily
protected conduct. Alvarez, 610 F.3d at 1268. On the other

10a
Appendix A
hand, the Supreme Court has indicated that the receipt of
a right-to-sue letter is not a protected activity because the
employee himself takes no part in the action. See Clark
Cty. Sch. Dist. v. Breeden, 532 U.S. 268, 273, 121 S. Ct.
1508, 149 L. Ed. 2d 509 (2001). An adverse employment
action is one that might dissuade a reasonable worker from
making a discrimination charge. Crawford v. Carroll, 529
F.3d 961, 974 (11th Cir. 2008).
To demonstrate a causal connection, the plaintiff
must show that (1) the decisionmakers knew of his
protected activity, and (2) the protected activity and
adverse action weren’t “wholly unrelated.” Shannon v.
Bellsouth Telecomms., Inc., 292 F.3d 712, 716 (11th Cir.
2002) (citation and quotations omitted). The relatedness
between the protected activity and adverse action may be
demonstrated by temporal proximity. Id. at 716-17. Absent
other evidence of causation, however, temporal proximity
must be “very close.” Thomas v. Cooper Lighting, Inc.,
506 F.3d 1361, 1364 (11th Cir. 2007) (citation omitted). For
example, we have held that a three-month delay between a
protected activity and adverse action was, standing alone,
insufficient to show a causal connection, id., but have
found a seven-week gap between a protected activity and
adverse action sufficient, see Farley v. Nationwide Mut.
Ins. Co., 197 F.3d 1322, 1337 (11th Cir. 1999).
Siddiqui first contends that NetJets unreasonably
extended his administrative leave in retaliation for the
letter from his attorney alleging discrimination. He does
not, however, point to any particular decisionmaker who
was aware of the letter and, again, the record is unclear as
to whether and by whom an affirmative decision to extend
the leave was made. See Shannon, 292 F.3d at 716. To

11a
Appendix A
the extent that Siddiqui points to the timing of NetJets’s
crewmember review board proceeding as evidence of
retaliation, it is undisputed that NetJets was in the process
of scheduling the proceeding before it received the letter
from his attorney. Because Siddiqui has not identified any
decisionmakers who knew of his protected activity and
had any involvement with extending his leave, he has not
established a causal connection between the letter and
his leave period. Id.
As for any causal connection between his EEOC
complaints and his eventual termination, Siddiqui argues
only that NetJets’s decision to terminate him on the
ninetieth day after the EEOC issued his right-to-sue letter
shows that NetJets waited to fire him until it believed
it would be safe from a lawsuit. Receiving the right-tosue letter, however, was not protected activity because
Siddiqui took no part in the action. See Breeden, 532 U.S.
at 273. And even if it were protected activity, temporal
proximity must be very close—absent other evidence—to
indicate causation. The three-month delay here, without
more, is not enough. See Thomas, 506 F.3d at 1364.
In sum, the district court did not err in granting
NetJets summary judgment on Siddiqui’s retaliation
claims because Siddiqui did not present evidence creating
a genuine factual issue as to a causal connection between
any protected activity and adverse action.
AFFIRMED.

12a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA, FILED JULY 23, 2018
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 16-23924-CIV-WILLIAMS
AMEER SIDDIQUI,
Plaintiff,
vs.
NETJETS AVIATION, INC.,
Defendant.
July 23, 2018, Decided
July 23, 2018, Entered on Docket
ORDER
THIS MATTER is before the Court on the Parties’
competing motions for summary judgment. After careful
review of the briefing and record in this case, and with the
benefit of oral argument, the Court enters final summary
judgment for Defendant on all claims.

13a
Appendix B
I.

BACKGROUND1
A.

The Parties

Plaintiff Ameer Siddiqui is a Muslim of Pakistani
descent. (DE 42-1, Pl.’s Statement of Material Facts
(PSMF) ¶ 1). Mr. Siddiqui has worked as a pilot in the
aviation industry since 1995, when he began working as a
flight instructor in New York. (Id.). His former employer,
Defendant NetJets Aviation, Inc., is the nation’s largest
fractional aircraft ownership company, with the largest
private jet fleet in the world. In 2006, Mr. Siddiqui began
working as a pilot for NetJets in its Citation Excel/XLS
fleet. (DE 45, Def.’s Statement of Material Facts (DSMF)
¶ 1). Mr. Siddiqui flew private jets for individual “owners”
(NetJets’ name for its clients) primarily from the West
Palm Beach location until NetJets suspended him from
flying in September 2013.
B. The Anonymous Call — Late 2012 / Early 2013
In late 2012 or early 2013, Joseph Dalton, NetJets’
Director of Aviation Security, received an anonymous call
1. This section includes the relevant admitted facts for purposes
of summary judgment. In their respective statements of material
facts, the Parties provided various assertions that are supported
by the record. In some instances, the Parties did not contest their
adversary’s assertions. In other instances, the Parties contested
their adversary’s assertions but without citing sufficient materials
in the record to refute those assertions. The Court will deem all of
these uncontested—or insufficiently contested—factual assertions
to be admitted. See S.D. Fla. L.R. 56.1(b); Fed. R. Civ. P. 56(c), (e).

14a
Appendix B
about Mr. Siddiqui. (DSMF ¶ 2; PSMF ¶ 3). According to
Dalton, the anonymous caller was a NetJets’ crewmember
who was very concerned something would occur involving
Mr. Siddiqui in the cockpit of a NetJets’ aircraft. (DSMF
¶ 3; DE 45-3). The caller “stated that Mr. Siddiqui had
made statements that were offensive to certain religious
groups and persons of certain national origins. (Id.).
Specifically, Mr. Siddiqui had commented that the
September 11 attacks were a conspiracy and did not
happen the way everyone believed. (Id.). Mr. Siddiqui also
spoke negatively about individuals of Jewish faith. (Id.).
The caller relayed that another crew member had told his
wife that if he were ever flying with Mr. Siddiqui and did
not come home, the wife should know it was related to Mr.
Siddiqui. (Id.). Dalton reported the call to NetJets’ legal
and labor relations departments. (Id.). 2
C.

NetJets’ Initial Interviews

In January 2013, David Hyman, Chief Pilot of the
Citation Excel/XLS fleet, and Anthony Mosso, NetJets’
Labor and Employee Relations Manager, investigated the
anonymous caller’s allegations about Mr. Siddiqui. (Id.
2. In response to NetJets’ statement of material facts, Plaintiff
argued that the anonymous call is non-admissible hearsay that should
not be considered on summary judgment. The Court disagrees.
First, Plaintiff included the anonymous call in his own statement of
material facts. (PSMF ¶ 3). He has therefore waived his objection
to having the call considered as part of the record on summary
judgment. In addition, the call is not being considered for the truth
of the matter asserted. Instead, the call is considered for its effect
on NetJets—the impetus for its investigation—and as evidence of
NetJets’ lack of discriminatory animus.

15a
Appendix B
¶ 4). Hyman and Mosso conducted telephone interviews
of four crewmembers who had recently flown with him:
Jeff Lindley, Gary Cox, Rick Price and Jim Rivera. (Id.
¶ 5). NetJets did not notify Mr. Siddiqui of the interviews.
(PSMF ¶ 4).
Hyman typed summaries of the interviews on January
11, 2013, and sent them to Eric Lampert, VP/Director
of Operations, and Jennifer Beale, Assistant General
Counsel. (DSMF ¶ 6). Hyman’s notes state the following:
• Lindley said he was unwilling to speak freely about
the details of his conversations with Mr. Siddiqui.
But Lindley did say that while “he did not agree
with [Mr. Siddiqui]’s perspective on Middle Eastern
politics, [] he wasn’t offended or taken aback by
anything that was said during the course of [his]
tour” with Mr. Siddiqui.
• Cox told Hyman and Mosso “specific details” of his
conversations with Mr. Siddiqui that “indicate[d]
strong anti-Israeli, if not anti-Semitic leanings.”
Regarding the Palestinian conflict, Cox alleged
that Mr. Siddiqui had said, “how would you like it if
someone kicked you out of your home?” Mr. Siddiqui
also shared the viewpoint that Al Qaeda was not
responsible for taking down the World Trade
Center buildings. Cox, however, also “stated he
was not offended or concerned by the conversations
he had with” Mr. Siddiqui. Hyman’s “take” from
interviewing Cox was “that there were political
views and [Cox] disagreed with them, but [Cox]
could fly with [Mr. Siddiqui].”

16a
Appendix B
• When Hyman first mentioned Mr. Siddiqui’s name
to Price, Price’s “first words were, ‘he worries
me.’” Although Price “could not remember specific
comments, he did say that [Mr. Siddiqui] expressed
such anti-America / pro-Arab sentiments, that it
made [him] ‘nervous.’”
• Rivera told Hyman and Mosso that Mr. Siddiqui is
a “big time conspiracy theorist” who had expressed
that the U.S. Government and the Jewish people
were responsible for bringing down the World
Trade Center to blame it on Pakistan so they could
take away Pakistan’s nuclear weapons. According
to Rivera, Mr. Siddiqui also had stated that the
Taliban are “just a group of scholars.”
Rivera also described Mr. Siddiqui as an “extreme
anti-Semite.” He said Mr. Siddiqui would frequently
respond to news stories by stating, “You see, it’s
the Jews!” According to Hyman’s notes, “Rivera’s
opinion is that [Mr. Siddiqui] is ‘fertile ground’
for Islamic extremism due to his frequent trips to
Pakistan and his unabashed hatred of Israel and
the U.S.”
Rivera told Hyman and Mosso about two incidents
when Rivera and Mr. Siddiqui were f lying a
passenger w ith “a Jew ish sounding name.”
During one trip, Mr. Siddiqui showed Rivera the
passenger manifest and said, “See her last name?
She is related to one of the families responsible for
persecuting the Palestinians in Israel.” On another

17a
Appendix B
trip, Mr. Siddiqui stated that the passenger, whom
Mr. Siddiqui believed was Jewish, had conspired
with the U.S. government to destroy the World
Trade Center for the purpose of implicating
Pakistan. Rivera also recounted an incident when
he and Mr. Siddiqui were eating breakfast in a
hotel in Atlanta while they were both in uniform.
Mr. Siddiqui became very angry about a news
story that was on the television while they ate. The
story, which related to an American policy, sparked
Mr. Siddiqui’s anger and he became very loud and
demonstrative in expressing his anti-American
perspective. When the waitress, who was from
Africa, approached their table, Mr. Siddiqui spoke
loudly to her regarding America’s oppression of
people from that region in order to seize their
oil. Mr. Siddiqui was so loud that Rivera had to
intervene to calm and quiet him down.
(DE 45-5). Based on these preliminary interviews,
NetJets decided to conduct additional and more in-depth
interviews. (DSMF ¶ 14). Beale prepared follow-up
questions for the four pilots and emailed them to Mosso
on February 4, 2013. (Id.).
D.

Follow Up Interviews

The follow up interviews did not occur until six months
later, in mid-August. (Id. ¶ 15). Moss and Hyman reinterviewed, via telephone, pilots Cox, Price and Rivera.
(Id.; DE 45-7). Hyman’s notes of these follow up calls
reflect that Cox reaffirmed that Mr. Siddiqui told him on

18a
Appendix B
multiple occasions that he believed September 11 was a
plot perpetrated by the US Government. (DE 45-7). Cox
also recalled conversations with Mr. Siddiqui regarding
trips Mr. Siddiqui made to Pakistan due to his arranged
marriage to a Pakistani woman. (Id.). Cox stated, however,
that he did not have any safety concerns with Mr. Siddiqui.
(Id.). During his second interview, Price again said that
Mr. Siddiqui expressed an anti-American perspective, but
he could not recall specific comments or provide further
detail. (Id.). Rivera, for his part, reiterated that he was
nervous when he first started flying with Mr. Siddiqui.
(Id.). “As an example, [Rivera] described an occasion
when he contacted his wife to warn her that if something
happened to the aircraft (and crew), it would be related to
[Mr. Siddiqui] and his political beliefs.” (Id.). But Rivera
also suggested that Mr. Siddiqui was “basically harmless.”
(Id.).
Mosso and Hyman also interviewed a fifth pilot, Joe
Wottreng. (DSMF ¶ 16). Wottreng stated that Mr. Siddiqui
told him the September 11 attacks were perpetrated to
prevent Pakistan from obtaining nuclear weapons, and
that Mr. Siddiqui would “talk politics with anyone who
will listen.” (DE 45-7). He further stated that Mr. Siddiqui
made the comment several times that the U.S. military
are “the ‘true terrorists.’” (Id.). Wottreng also noted that
Mr. Siddiqui had traveled to Pakistan multiple times. (Id.).
Wottreng said, however, that he “ha[d] no safety concern
with Mr. Siddiqui.” (Id.). And Hyman’s notes of these follow
up interviews state that “ultimately all people interviewed
felt that [Mr. Siddiqui] is not a threat to passengers,
equipment or crew. The general sentiment is that he likes

19a
Appendix B
to hear himself talk, but quickly cuts off the rant when
asked to do so by his fellow crewmember.” (Id.).
About two weeks later, Hyman, Mosso and Beale
conducted telephone interviews of two additional pilots,
Joseph Parks and Scott Davis. (Id. ¶ 21). Beale prepared
typed summaries of the interviews. (Id.; DE 45-11).
According to her notes, Parks stated that he had not
heard any pilots in his fleet make any racist or antiSemitic remarks, and that Mr. Siddiqui never “had made
any comments about Jewish passengers.” (DE 45-11). But
Parks did say that Mr. Siddiqui made comments about
Jews being responsible for September 11 and other world
problems. (Id.). Parks also said, “[Mr. Siddiqui] told him
that he ([Mr. Siddiqui]) was questioned by the CIA or
FBI after the world trade center bombings.” (Id.). When
asked if he felt Mr. Siddiqui was a safety risk, Parks said,
“I really don’t know. If I had the choice, I’d rather fly with
[another pilot], but [Mr. Siddiqui] didn’t preach anything
... I know it’s kind of vague, but we got along pretty good
... we had dinner together a couple of nights. He wasn’t
reclusive or preaching to me.” (Id.). Parks also said during
the phone interview that “he has heard from other people
who have flown with [Mr. Siddiqui] that he ticked them off,
but he can’t remember specifically who right now.” (Id.).
Parks further noted he “goes back to Pakistan/India all
the time...” (Id.).
During his interview, Davis said it had been a while
since he had flown with Mr. Siddiqui, but he did “have
some questions ... And in talking with other pilots we’ve
shared the same sentiment.” (Id.). Although he could not

20a
Appendix B
recall specific comments, he recalled one particular flight
where they were picking up a Jewish passenger and Mr.
Siddiqui said something negative—he couldn’t remember
the exact wording but said “If I were Jewish I would have
been offended.” (Id.). Davis also said he had heard that
“apparently [Mr. Siddiqui] took a leave of absence to go
back to Pakistan for a few months and some people felt
he picked up a lot of Anti-American sentiment while over
there. . . .” (Id.).
E. NetJets Places Mr. Siddiqui On Administrative
Leave And Refers Him To The FBI
Toward the end of August, Beale emailed a summary
of Mr. Siddiqui’s employment history 3 and the notes
from the January 2013 preliminary interviews and
the August 2013 follow-up interviews to William Noe,
NetJets’ President and Chief Operating Officer. (DSMF
¶ 18). Based on this information, and after discussing Mr.
Siddiqui’s actions with Colleen Nissl and Eric Lampert
(VP/Director of Operations), Noe decided to place Mr.
Siddiqui on administrative leave. (Id. ¶ 19). Noe testified
3. Beale’s summary of Mr. Siddiqui’s employment history
indicates that NetJets’ leave information did “not indicate whether
[Mr. Siddiqui] went to Pakistan while on leave.” At deposition, Noe
was asked: “Would it make a difference if [Mr. Siddiqui] had taken
many trips to Pakistan?” He responded: “It was one piece of the
overall picture. ... It didn’t have an impact.” Noe also testified that
NetJets looked into whether Mr. Siddiqui had flown to Pakistan
to “fact check[] the various parts of information that had come
from other pilots regarding [Mr. Siddiqui] to see if there was
any credibility to those statements.” (DE 45-10 at 96-98). These
assertions are uncontradicted.

21a
Appendix B
that it is NetJets’ practice to put an employee on paid
administrative leave while NetJets investigates any issues
raised about that employee. (DSMF ¶ 20). Noe stated
that employees are placed on leave for two reasons: 1) to
determine whether the information is credible, and 2) for
safety reasons. (Id.). According to Noe, it is not fair for
individual crew members “to know that they are being
scrutinized or investigated and then put them back out in
the airplane and expect them not to be distracted thinking
about it.” (Id.).
On September?, 2013, Mr. Siddiqui received an email
from then-Assistant Director of Flight Operations, Brent
Owens, informing him that NetJets had placed him on
paid administrative leave as of September 7, 2013, while
NetJets “investigate[d] allegations of security concerns.”
(DSMF ¶ 22; PSMF ¶ 5). Mr. Siddiqui was directed to
report to NetJets’ headquarters in Columbus, Ohio,
two days later for a meeting regarding his suspension.
(PSMF ¶ 5). During the meeting, he met with Moss, Brent
Owens, and NetJets Association of Shared Aircraft Pilots
(“NJASAP”) union representative Paul Konrath. (PSMF
¶ 5-6). Mr. Siddiqui was asked to return his aircraft key
and badge. (Id.).
That day, Dalton and Ron Brower, NetJets’ Corporate
Secretary and Associate General Counsel, met with the
FBI Columbus Joint Terrorism Task Force regarding
Mr. Siddiqui’s conduct and statements. (DSMF ¶ 24).
According to NetJets, it waited for the FBI to complete
its investigation before taking any further action on Mr.
Siddiqui’s case. (Id. ¶ 25).

22a
Appendix B
On December 5, 2013, the FBI contacted Mr. Siddiqui
seeking to meet with him. (PSMF ¶ 9). Mr. Siddiqui agreed
to meet that evening. (Id.). During the meeting, the two
FBI agents questioned Mr. Siddiqui generally about
terrorism, September 11, his divorce, and other pilots;
they also disclosed that NetJets had contacted the FBI to
open an inquiry into him. (Id.). The FBI agents assured
Mr. Siddiqui the meeting was not part of any investigation,
and that they were merely following up on an inquiry. (Id.).
The agents indicated they would notify Joseph Dalton,
NetJets’ Director of Aviation Security, that the FBI would
be closing the inquiry. (Id.). The FBI’s inquiry concluded
in approximately February 2014; it found no reason for
concern or further action, and it conveyed this conclusion
to NetJets in early 2014. (Id.; DE 45-10 at 84:14-85:2).
F.

Mr. Siddiqui’s Extended Administrative Leave

From 2014 to 2015, Mr. Siddiqui remained on
administrative leave and could not fly for NetJets. (PSMF
¶ 10). He continued working as an aircraft mechanic
for American Airlines during this time. (Id.). Although
NetJets paid Mr. Siddiqui his full salary, benefits, and a
bonus during this leave, Mr. Siddiqui claims the length
of the leave has had severe repercussions for his career.
(DSMF ¶ 47; PSMF ¶ 10). For instance, because he had
no permission to fly or otherwise meet his flight training
requirements, he claims he lost opportunities for training
and continuing education necessary to meet regulatory
requirements for flying as a pilot. See (DE 81). He also
alleges that he became ineligible to keep the training
required to maintain active flight status. (Id.; DE 48).

23a
Appendix B
According to NetJets, Mr. Siddiqui’s case did not
progress in 2014 because its management was engaged
in contentious negotiations with the pilots’ union and two
other employee groups. (DSMF ¶ 26). These negotiations
occupied a large amount of time for NetJets’ employees in
the labor relations department, including Mark Okey, who
was Vice President for Labor Contract Compliance. (Id).
Okey and others in the department were responsible for
conducting crewmember review boards (“CRBs”) for more
serious matters, such as Mr. Siddiqui’s.4 (Id.). In the same
time period, however, NetJets’ Labor Department was
able to marshal the personnel and resources to conduct
other CRBs, although those involved different charges of
misconduct. See (DE 48 ¶ 26; DE 42-2 at 183-86; DE 47-1).
In addition to the union negotiations, NetJets identifies
several key management changes at NetJets that it claims
delayed the scheduling of Mr. Siddiqui’s CRB. (DSMF
¶ 27). Alan Bobo took over as the Director of Operations,
the position ultimately responsible for management of the
flight crews and regulatory and compliance operations,
in July 2015. (Id.). A new president started at NetJets in
2015 as well. (Id.).
G. Mr. Siddiqui’s Crewmember Review Board
In January 2015, NetJets began the process of
scheduling a CRB for Mr. Siddiqui. (DSMF ¶ 28). A CRB
consists of three to five employees from various NetJets
departments assembled to investigate matters concerning
4. Mr. Siddiqui contests the implication that these negotiations
prevented the Labor Department from scheduling or conducting his
or anyone else’s CRB.

24a
Appendix B
crewmembers, including pilots. (Id. ¶ 29). During the
CRB, the board members interview the employee in the
presence of his or her union representative. (Id.).
On February 16, 2015, Mr. Siddiqui’s counsel at the
time sent a letter to NetJets’ in-house counsel, seeking
information about Mr. Siddiqui’s employment status,
and an explanation for the delay in resolving any issues
related to that status. The letter also raised Mr. Siddiqui’s
concerns about potential discrimination and retaliation.
NetJets responded on March 2, 2015, asserting it would
not discuss such matters and that, in any event, it does
not discriminate or retaliate against employees such as
Mr. Siddiqui. (PSMF ¶ 11; DE 42-2 at 103).
On March 29, 2015, Mr. Siddiqui was asked to travel
to Columbus, Ohio, to attend a CRB hearing scheduled
for April 1, 2015. (DSMF ¶ 30). Mr. Siddiqui was advised
that the CRB was investigating his alleged inappropriate
statements relating to owners and/or violations of
NetJet’s Professional Conduct and Prohibition Against
Harassment Policy. (Id). The notice advised Mr. Siddiqui
that these alleged inappropriate statements included
anti-Semitic comments and derogatory statements about
national origin. 5 (Id.).

5. The email to Mr. Siddiqui notifying him of the CRB
referenced “inappropriate statements relating to owners and/or
violations of [Defendant’s policy regarding harassment], including,
but not limited to, derogatory statements regarding different
religions (anti-Semitic comments) and national origins.” (DE 45-30).

25a
Appendix B
The CRB hearing occurred on April 1, 2015. (Id. ¶ 31).
The panel consisted of Erica Leighton, Dan Driscoll, Trent
Edwards, and Mark Okey. (DE 45-18). Mr. Siddiqui was
represented by union attorney Sonya Cook and union
steward Mike Monkevicz. (DSMF ¶ 31). At the start of
the CRB hearing, Okey advised Mr. Siddiqui about the
importance of integrity and the board’s expectation of
complete honesty. (Id. ¶ 32). Okey also told Mr. Siddiqui
that lying is “a separate and distinct reason for discipline
at NetJets, up to and including discharge.” (Id. 32). Mr.
Siddiqui indicated he understood. (Id.).
Mr. Siddiqui was asked a series of questions during
the CRB about whether he had made specific types of
statements. (Id. ¶ 33). He was asked about his comments
regarding Jews, the Jewish religion, NetJets’ passengers
whom Mr. Siddiqui assumed or knew to be Jewish, the
September 11 attacks, and the U.S. military’s alleged
terroristic role. (Id.; DE 45-18). In response to the
panel’s questions, Mr. Siddiqui repeatedly denied making
any statements described by the pilots who had been
interviewed. (Id. ¶ 34; DE 45-18). After a break in the CRB
hearing, during which Mr. Siddiqui had the opportunity to
consult with his union representatives, Mr. Siddiqui again
categorically denied making the inappropriate comments.
(Id. ¶ 35).
After the CRB, because Mr. Siddiqui had denied
making any of the statements at issue, CRB member
Erica Leighton again contacted the pilots who were
originally interviewed to confirm their recollection of Mr.
Siddiqui’s actions and confirm their prior accounts. (Id.

26a
Appendix B
¶ 37). In addition, the CRB members prepared a Report of
Investigation (ROI) after concluding their work. (DSMF
¶ 38; DE 45-19). Based on the “confirmations by fellow
crewmembers, [Mr.] Siddiqui’s behavior at the review
board meeting, the consistency of the witnesses, and the
lack of evidence that the persons interviewed colluded in
any way, the Board concluded that Mr. Siddiqui was not
honest during his in-person review board, and that he did
make anti-Semitic and other offensive and concerning
remarks during periods of duty and/or while in uniform
and representing NetJets.” (Id.). The Board unanimously
decided to fire Mr. Siddiqui. (Id.).
H. Mr. Siddiqui’s Termination
On April 19, 2015, Mr. Siddiqui filed a charge of
discrimination with the EEOC, alleging that NetJets
had kept him on administrative leave because of his race,
religion, and national origin and retaliated against him for
engaging in protected conduct. (PSMF ¶ 16). On May 11,
2016, the EEOC issued a Dismissal and Notice of Rights,
which indicated that “[b]ased upon its investigation, the
EEOC is unable to conclude that the information obtained
established violations of the statutes.” (Id. ¶ 17).
On May 24, 2016, Beale emailed Sonya Cook, Mr.
Siddiqui’s union representative, inquiring whether
Mr. Siddiqui had any renewed interest in reaching a
settlement before NetJets took action based on the CRB
hearing. (DSMF ¶ 41). The parties engaged in settlement
discussions during June and July of 2016. (Id. ¶ 42).
After an impasse was reached, Bobo made the decision

27a
Appendix B
to discharge Mr. Siddiqui. (Id. ¶ 43). Bobo discussed the
matter with Bill Noe and reviewed the CRB panel’s ROI.
(PSMF ¶ 19; DE 50 ¶ 19). Bobo testified that he did not
know at the time that the FBI had closed its inquiry
into Mr. Siddiqui or that NetJets, and not the FBI, had
initiated that inquiry in the first place. (PSMF ¶ 19).
Bobo also testified that Noe made it “very clear” that
“Mr. Siddiqui would no longer be able to be employed [in]
a pilot capacity.” (Id.).
Net Jets f ired Mr. Siddiqui by sending him a
termination letter on August 11, 2016. (DSMF ¶ 44).
The letter states that he was terminated for making
anti-Semitic and other offensive comments, failing to
acknowledge his inappropriate conduct, and for lying
about making those comments during the CRB hearing.
(Id.; DE 45-24).
On August 17, 2016, the union filed a grievance
challenging the sufficiency of the termination letter to Mr.
Siddiqui, including, in part, that NetJets had not provided
enough detail to Mr. Siddiqui as to the underlying events
allegedly forming the basis of his discharge. (DSMF
¶ 48; DE 45-27). On August 24, 2016, NetJets issued a
supplemental termination letter to Mr. Siddiqui, which
added that the alleged statements were made “on multiple
occasions prior to [his] placement on paid administrative
leave, including but not limited to duty tours in 2012[,]”
and that his purported “dishonesty occurred, at minimum,
during the related CRB interview on April 1, 2015.”
(DSMF ¶ 49; DE 45-28).

28a
Appendix B
Following his discharge, Mr. Siddiqui filed a grievance
with the union on September 9, 2016, alleging he was
terminated without “just cause.” (DSMF ¶ 50). He filed
this lawsuit on September 13, 2016 (DE 1), and then
filed a second charge of discrimination with the EEOC
on September 22, 2016. (DSMF ¶ 52-54). Mr. Siddiqui’s
grievance was arbitrated on August 8 and 17, 2017. (Id.).
In December 2017, the arbitration panel issued its decision
finding that NetJets’ termination of Mr. Siddiqui was for
just cause. (Id.).
In this case, Mr. Siddiqui alleges NetJets discriminated
against him based on his race, religion, and national
origin, and retaliated against him for complaining about
this discrimination, by suspending him, extending his
suspension, and firing him.
II. APPLICABLE LAW
A.

Summary Judgment Standard

Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). Under this standard, “[o]nly
disputes over facts that might affect the outcome of the
suit under the governing [substantive] law will properly
preclude the entry of summary judgment.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505, 91
L. Ed. 2d 202 (1986). And any such dispute is “genuine”
only “if the evidence is such that a reasonable jury could
return a verdict for the nonmoving party.” Id.

29a
Appendix B
In evaluating a motion for summary judgment, the
Court considers the evidence in the record, “including
depositions, documents, electronically stored information,
affidavits or declarations, stipulations . . . , admissions,
interrogatory answers, or other materials . . . .” Fed. R.
Civ. P. 56(c)(1)(A). The Court “must view all the evidence
and all factual inferences reasonably drawn from the
evidence in the light most favorable to the nonmoving
party, and must resolve all reasonable doubts about the
facts in favor of the non-movant.” Rioux v. City of Atlanta,
520 F.3d 1269, 1274 (11th Cir. 2008) (quotation marks and
citations omitted). At the summary judgment stage, the
Court’s task is not to “weigh the evidence and determine
the truth of the matter but to determine whether there
is a genuine issue for trial.” Anderson, 477 U.S. at 249.
Finally, “[s]ummary judgment for a defendant is
appropriate when the plaintiff ‘fails to make a sufficient
showing to establish the existence of an element essential
to [his] case, and on which [he] will bear the burden at
trial.” Cleveland v. Policy Mgmt. Sys. Corp., 526 U.S. 795,
805-06, 119 S. Ct. 1597, 143 L. Ed. 2d 966 (1999) (quoting
Celotex Corp. v. Catrett, 477 U.S. 317, 322, 106 S. Ct. 2548,
91 L. Ed. 2d 265 (1986)). Thus, “[i]f the non-movant . . . fails
to adduce evidence which would be sufficient . . . to support
a jury finding for the non-movant, summary judgment may
be granted.” Brooks v. Blue Cross & Blue Shield of Fla.,
Inc., 116 F.3d 1364, 1370 (11th Cir. 1997).

30a
Appendix B
B. Plaintiff ’s Title VII A nd Section 1981
Discrimination Claims
The parties agree that case is based on circumstantial,
not direct, evidence. Cases based on circumstantial
evidence utilize the McDonnell Douglas analysis, under
which a plaintiff bears the initial burden of establishing
the elements of his prima facie case of discrimination.6
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 80203, 93 S. Ct. 1817, 36 L. Ed. 2d 668 (1973). To establish
a prima facie case of discrimination, a plaintiff must
show that: (1) he is a member of a protected class; (2) he
was qualified for the position; (3) he suffered an adverse
employment action; and (4) he was treated less favorably
than a similarly-situated individual outside his protected
class. Maynard v. Board of Regents of the Division of
Universities of the Florida Department of Education,
342 F.3d 1281, 1289 (11th Cir. 2003). To establish a prima
facie case of retaliation, a plaintiff must show: (1) that
he engaged in statutorily protected expression; (2) that
he suffered an adverse employment action; and (3) that
there is some causal relationship between the two events.
Holifield v. Reno, 115 F.3d 1555, 1566 (11th Cir. 1997).
6. When § 1983 is used as a parallel remedy for violation of
Title VII, the elements of the two causes of action are the same.
Cross v. Alabama, State Department of Mental Health & Mental
Retardation, 49 F.3d 1490, 1508 (11th Cir. 1995). Identical methods of
proof, as described in McDonnell Douglas Corp. v. Green, 411 U.S.
792, 93 S. Ct. 1817, 36 L. Ed. 2d 668 (1973), are used. Richardson
v. Leeds Police Department, 71 F.3d 801, 805 (11th Cir. 2000). So if
Plaintiff fails to establish his Title VII claim, his § 1983 claim also
fails.

31a
Appendix B
If a plaintiff establishes a prima facie case, then
the burden shifts to the employer “to articulate some
legitimate, nondiscriminatory reason” for the employer’s
actions. McDonnell Douglas, 411 U.S. at 802-03. If the
employer offers such a reason, the burden shifts back
to the plaintiff to show that the employer’s reason was
pretext for prohibited discrimination. Id. at 804.
To avoid summa r y judg ment on employ ment
discrimination and retaliation claims, the plaintiff must
introduce significantly probative evidence that both the
proffered reason for the adverse employment action is
false and discrimination is the real reason for the action.
Brooks v. County Commission of Jefferson County,
Alabama, 446 F.3d 1160, 1163 (11th Cir. 2006). To do
this, a plaintiff must “demonstrate[] such weaknesses,
implausibilities, inconsistencies, incoherencies, or
contradictions in the employer’s proffered legitimate
reasons for its action that a reasonable factfinder could
find them unworthy of credence.” Jackson v. State of
Alabama State Tenure Commission, 405 F.3d 1276, 1289
(11th Cir. 2005). “The inquiry into pretext centers upon the
employer’s beliefs, and not the employee’s own perceptions
of his performance.” Rioux, Ga., 520 F.3d at 1278. Thus,
“[c]onclusory allegations of discrimination, without more,
are not sufficient to raise an inference of pretext or
intentional discrimination where [an employer] has offered
. . . extensive evidence of legitimate, non-discriminatory
reasons for its actions.” Mayfield v. Patterson Pump Co.,
101 F.3d 1371, 1376 (11th Cir. 1996) (citations omitted).

32a
Appendix B
C.

Plaintiff’s Retaliation Claims

“[R]etaliation claims must be proved according to the
traditional principles of but-for causation, not the lessened
causation test stated in § 2000e-2(m). This requires proof
that the unlawful retaliation would not have occurred in
the absence of the alleged wrongful action or actions of
the employer.” Univ. of Texas v. Nassar, 570 U.S. 338, 133
S. Ct. 2517, 2533, 186 L. Ed. 2d 503 (2013).
Title VII, Section 1981 and the ADEA “have the
same requirements of proof and use the same analytical
framework” for determining whether a plaintiff has made
a prima facie showing to survive summary judgment.
Barnett v. Athens Reg’l Med. Ctr., 550 Fed. Appx. 711
(11th Cir. 2013). To establish a prima facie retaliation
case, Mr. Siddiqui must show that: (1) he participated in a
protected activity; (2) he suffered an adverse employment
action; and (3) there was a causal connection between his
participation in the protected activity and the adverse
employment action. Barnett, 550 Fed. Appx. at 714
(citing Goldsmith v. City of Atmore, 996 F.2d 1155, 116263 (11th Cir.1993)). Ultimately, if NetJets articulates a
legitimate, non-discriminatory reason for its actions, Mr.
Siddiqui must show, by a preponderance of the evidence,
that the proffered reasons were pretextual. See Beach v.
JPMorgan Chase Bank NA, 218 F. Supp. 3d 1367, 1373
(S.D. Fla. 2016) (citing Walker v. Mortham, 158 F.3d 1177,
1184 (11th Cir. 1998)).

33a
Appendix B
III. ANALYSIS
Both Parties seek summary judgment on Plaintiff’s
discrimination and related retaliation claims. Plaintiff’s
claims are based on two NetJets employment actions
against him: placement on (and continuation of )
administrative leave, and termination of employment. In
its motion for summary judgment, NetJets argues it is
entitled to judgment on Plaintiff’s claims for four reasons.
NetJets first argues that paid administrative leave does
not constitute an adverse employment action, and thus
cannot give rise to a discrimination or retaliation claim.
NetJets next asserts that Plaintiff cannot establish a
prima facie case of discrimination because he cannot
demonstrate that he received less favorable treatment
than similarly situated employees outside his protected
class. And even if Plaintiff could demonstrate a prima
facie case, NetJets argues, his discrimination and
retaliation claims also fail because he cannot show that
NetJets’ proffered reasons for placing and keeping him on
administrative leave and subsequently terminating him
were pretextual. Finally, NetJets argues that Plaintiff’s
retaliation claim fails for the additional reason that he
cannot show a causal link between his alleged protected
conduct and his termination.
After carefully considering the Parties’ briefing, the
record, and applicable law, the Court finds that Plaintiff
has not presented sufficient evidence to show that NetJets’
proffered non-discriminatory reasons for Plaintiff’s
administrative leave and termination were pretextual.
As a result, the Court need not address in depth the

34a
Appendix B
merits of Plaintiff’s prima facie showing of discrimination
and retaliation.7 See Soulinthong v. TrustPoint Int’l,
LLC, 695 F. App’x 474, 476 (11th Cir. 2017) (declining to
address plaintiff’s prima fade case because “even if [she]
established [one], summary judgment on [her] claims was
proper because she failed to establish pretext”).
A.

Plaintiff’s Discrimination Claims Fail: He
Cannot Show Pretext

Before turning to pretext, the Court finds that
NetJets has met its burden to articulate legitimate, nondiscriminatory reasons for its actions. See McDonnell
Douglas, 411 U.S. at 802-03. This burden is “exceedingly
light.” Turnes v. Amsouth Bank, N.A., 36 F.3d 1057,
1061 (11th Cir. 1994). NetJets claims it originally placed
Plaintiff on administrative leave because of security
concerns arising from alarming comments he had made
about the September 11 attacks and people of Jewish
faith, and because of concerns raised by fellow pilots and
crewmembers. NetJets has also stated that it generally
places pilots on leave while they are being scrutinized or
investigated so that they are not distracted while flying.
As for the duration of Plaintiff’s leave, NetJets claims it
was due to several legitimate, non-discriminatory reasons,
including that NetJets was awaiting the outcome of the
7. The Court also assumes, without deciding, that under the
circumstances present here—administrative leave extending nearly
three years; lost opportunities for required training; and a serious
“red flag” placed in his permanent employment file—NetJets’
placement of Mr. Siddiqui on administrative leave and its continuation
of that leave constitute an actionable adverse employment action.

35a
Appendix B
FBI’s investigation; that its management was involved in
contentious negotiations with the pilots’ union and other
employee groups, consuming much of the labor relations
department’s time; and that there were several changes
in key management positions at NetJets. Finally, NetJets
asserts that it terminated Plaintiff because the fourperson crewmember review board assigned to his case
unanimously determined that Plaintiff had made the
offensive and concerning comments while on duty, and
then lied about making those comments when questioned
during his CRB.
The Court finds that these arguments—which are
supported by sufficient record evidence (see supra, at
2-12)—fulfill NetJets’ intermediate burden of offering
legitimate, non-discriminatory reasons for its actions.
See Lopez v. AT&T Corp., 457 Fed. Appx. 872, 874
(11th Cir. 2012) (proffered reason is legitimate and
non-discriminatory if it is one that “would motivate a
reasonable employer”); Combs v. Plantation Patterns,
106 F.3d 1519, 1528 (11th Cir. 1997) (“To satisfy this
intermediate burden, the employer need only produce
admissible evidence which would allow the trier of fact
rationally to conclude that the employment decision had
not been motivated by discriminatory animus.”); see also
Rodriguez v. Cargo Airport Srvcs. USA, LLC, No. 14-CV22610-WILLIAMS, 2015 WL 13016400, *7 (S.D. Fla. Aug.
5, 2015) (“A violation of company rules is a legitimate, nondiscriminatory reason for firing an employee.”) (internal
citations omitted).

36a
Appendix B
The burden therefore shifts to Plaintiff to show
that these reasons are a mere pretext for unlawful
discrimination and retaliation. To establish pretext,
Plaintiff first argues that similarly situated NetJets’
employees outside his protected class were treated more
favorably. Next, he claims NetJets offered reasons for
its actions that are inconsistent with its findings for
placing him on administrative leave; provided shifting
explanations for its decision to ultimately terminate him;
and departed from its typical procedures for assessing and
meting out discipline. Because Plaintiff has not presented
sufficient evidence substantiating these arguments and
showing that “it is more likely than not” that NetJets was
motivated by unlawful animus, the Court is compelled to
grant summary judgment for NetJets.
i.

Plaintiff’s Comparator Evidence Does Not
Create A Genuine Issue Of Material Fact
On Pretext

Comparator evidence can demonstrate pretext only
when a plaintiff shows that he and the other employee(s)
are similarly situated in all relevant respects, including
that they are involved in or accused of the same or similar
conduct and are disciplined in different ways. Holifield,
115 F.3d at 1562. Misconduct that is merely “similar” to
the misconduct of the disciplined plaintiff is insufficient
(Rioux, 520 F.3d at 1280); “[t]he quantity and quality of
the comparator’s misconduct [must] be nearly identical”
to that of the plaintiff. Maniccia v. Brown, 171 F.3d 1364,
1368 (11th Cir. 1999). This insistence on nearly identical
conduct is critical “to prevent courts from second-guessing

37a
Appendix B
employers’ reasonable decisions and confusing apples
with oranges.” Burke-Fowler v. Orange County, Fla., 447
F.3d 1319, 1323 (11th Cir. 2006) (quoting Maniccia, 171
F.3d at 1368); see also Rioux, 520 F.3d at 1280. Applying
this standard, the Court finds that Plaintiff’s purported
comparators are not sufficiently similar and cannot
create a genuine issue of material fact regarding NetJets’
proffered reasons for its employment actions.
Plaintiff proposes these four white, non-Muslim pilots
as comparators:
• Pilot and First Officer A. Dekker. He made
inappropriate racial remarks during a breakfast
with a coworker in November 2015, and ultimately
received a seven-day suspension and warning letter.
A CRB was convened approximately one month
after the alleged incident. NetJets issued its final
report within five weeks of the incident.
• Pilot and Captain M. McNatt. He made an
inappropriate comment about the Supreme Court’s
same-sex marriage decision and told a racist joke in
front of coworkers. The incident occurred on June
25, 2015, and NetJets convened a CRB on August
25, 2015. NetJets recommended a fourteen-day
suspension approximately three weeks later.
• Pilot and Captain R. “Brad” Donwerth. He
was accused of poor performance during flight
checks, and of having a poor attitude toward
coworkers. Approximately five months after the

38a
Appendix B
alleged incidents—which included emails from
NetJets employees describing Donwerth’s flight
performance issues—NetJets recommended
additional training and supervision on Donwerth’s
upcoming flights.
• An “unnamed pilot.” He was reinstated after being
acquitted of criminal charges. NetJets put him on
leave in July 2011, and reinstated him in March
2013.
(DE 42-2 at 178-203).
These individuals are not proper comparators: None of
them are substantially similar to Plaintiff as the applicable
caselaw requires. See e.g., Blow v. Virginia College, 619
Fed. Appx. 859, 862 (11th Cir. 2015) (granting summary
judgment because plaintiff’s proffered comparators were
not accused of the same or similar conduct as plaintiff).
Dekker and McNatt are not similarly situated to Plaintiff
because neither the quality nor the quantity of their
conduct was “nearly identical” to his. In Dekker’s case,
he made two offensive comments on a single day and had
no prior incidents of similar conduct. (DE 42-2 at 179-81;
DE 49-1). He admitted his behavior and acknowledged
it was inappropriate, repeatedly apologized to his fellow
crewmember, and was embarrassed and contrite about
his actions. (Id.). Based on these factors, Director of
Operations Alan Bobo determined that a final written
warning, a seven duty-day unpaid suspension and
mandatory sensitivity training, rather than termination,
was the appropriate discipline. (Id.)

39a
Appendix B
In McNatt’s case, his offensive comments were also
limited to a single day, he had no prior similar incidents,
and he apologized to the crewmember he offended. (Id. at
183-86; DE 49-1). Although McNatt did not recall making
the comments, he had apologized at the time of the incident
and indicated that he was sorry if he had offended anyone.
(Id.). Bobo determined that a final written warning and
a fourteen duty-day unpaid suspension, as opposed to
termination, was the appropriate discipline for McNatt.
(Id.).
Unlike these incidents, Plaintiff repeatedly made
offensive and inappropriate comments while on-duty.
See Maniccia, 171 F.3d at 1369 (female plaintiff with at
least four policy violations not similarly situated to male
employees who each committed a single policy violation).
Moreover, Plaintiff ’s comments prompted security
concerns and an FBI investigation (as discussed below,
Plaintiff agrees that reporting his comments to the FBI
was reasonable). Dekker’s and McNatt’s comments did
not give rise to similar security concerns. Plaintiff also
lied about making the statements and showed no remorse
or contrition when asked about them. See id. (proposed
comparators not similarly situated where, unlike plaintiff,
there was no evidence they lied about misconduct).
Plaintiff’s denials contradicted the reports of numerous
pilots and other NetJets’ employees and provided an
additional, alternative ground for his termination. 8 (DE
45-23, Arbitration testimony of Alan Bobo, at 330-31).
8. NetJets’ answers to interrogatories reveal that it fired at
least eight other pilots—who presumably were not in Plaintiff’s
protected class—for dishonesty. See (DE 42-2 at 5-6).

40a
Appendix B
Donwerth is also not similarly situated to Plaintiff
because his misconduct was not of the same type. See
Burke-Fowler, 447 F.3d at 1325 (different types of
misconduct may warrant different types and degrees of
discipline). Plaintiff was placed on extended administrative
leave and terminated because he made concerning and
inappropriate comments while on duty and, after a lengthy
investigation, NetJets concluded Plaintiff lied about
making the comments. Neither situation involved flight
proficiency issues. Donwerth’s issues, in contrast, related
to his technical performance as a pilot. (DE 42-2 at 188203). NetJets addressed his capability issues through a
temporary change in duty status from pilot in command
to second in command, and directed that he undergo fifty
hours of additional operating experience. (Id.).
The decision makers involved in Donwerth’s case
were also different than the decision makers in Plaintiff’s
case. Bill Noe, who made the decision to place Plaintiff on
paid administrative leave, was the president of NJI, Inc.
in South Carolina in 2007 and had no role in Donwerth’s
discharge. See (DE 45-10 at 11:17-14:11; DE 42-2 at 20003). Likewise, Bobo, who made the decision to terminate
Plaintiff, had no involvement in Donwerth’s case. (DE
49-1 ¶ 10).
As for the final comparator—the unnamed pilot
acquitted of unknown criminal charges—he too was not
“involved in or accused of the same or similar conduct”
as Plaintiff. Jones v. Bessemer Carraway Med. Ctr.,
137 F.3d 1306, 1311 (11th Cir. 1998). Furthermore, Eric
Lampert, who made the decision to reinstate the unnamed

41a
Appendix B
pilot, was not a decision maker in Plaintiff’s matter. See
Silvera v. Orange County Sch. Bd., 244 F.3d 1253, 1261
n.5 (11th Cir. 2001) (“differences in treatment by different
supervisors or decision makers can seldom be the basis
for a viable claim of discrimination”). Thus, he is also not
a valid comparator for demonstrating pretext.
Plaintiff further argues that in the cases of Dekker,
McNatt, and Donwer th, Net Jets conducted, and
concluded, its investigations much more quickly than in
his case. But as discussed, Plaintiff’s case was entirely
different than the proposed comparators’ cases. It raised
security concerns and was referred to the FBI. It also
required an investigation that involved more than fifteen
interviews and the special consideration of senior level
management at NetJets. And, as discussed in more detail
below, NetJets has offered legitimate, non-discriminatory
reasons for the delay in resolving Plaintiff’s case. Finally,
the argument that NetJets unreasonably delayed in
concluding its investigation is irrelevant to the legitimate,
non-discriminatory conclusion it ultimately reached:
Plaintiff made offensive and concerning comments while
on duty, and then lied about making them during his CRB.
Based on these distinguishing factors, if the Court
were to consider these comparators in evaluating pretext,
it would be doing precisely what the Eleventh Circuit
warned against in Burke-Fowler, it would be “secondguessing employers’ reasonable decisions and confusing
apples with oranges.” Accordingly, the Court finds that
Plaintiff has not presented sufficient evidence of similarly

42a
Appendix B
situated comparators to create a genuine issue of material
fact on the issue of pretext.9
ii.

Plaintiff ’s Other Attempts To Show
Pretext Fail

Plaintiff’s other attempts to show that his extended
administrative leave and termination were “more likely
than not” motivated by discriminatory or retaliatory
animus are similarly unconvincing.
Plaintiff first argues that NetJets’ reason for initially
placing him on administrative leave—“security concerns”
arising from numerous reports that he made alarming and
offensive statements while on duty—“defies belief” given
the results of the initial interviews and the eight-month
delay in placing him on leave from the time it received the
initial compliant. But Plaintiff has repeatedly asserted
that he “does not contend that NetJets’ initial decision to
contact the FBI was unreasonable in light of the initial
allegations.” (DE 47 at 10); see also (DE 41 at 13) (“Mr.
Siddiqui never alleges (and has not asserted in any other
filing) that NetJets’ decision to report him the FBI was
unreasonable or improper in any way.”). The Court agrees
with NetJets that it is contradictory for Plaintiff to assert
9. The issues with Plaintiff’s proffered comparators would also
apply to Plaintiff’s prima facie showing of discrimination. As noted
at the outset, however, the Court need not review that deficiency
in depth because, even if Plaintiff had satisfied the prima facie
requirement under the McDonnell Douglas framework, he has
failed to show that NetJets’ reasons for his administrative leave and
termination were pretextual.

43a
Appendix B
that it was reasonable for NetJets to contact the FBI so the
FBI could investigate, while at the same time arguing that
NetJets’ decision to place him on paid administrative leave
was discriminatory. The same events—Plaintiff’s repeated
comments to crewmembers—were the motivating factor
behind NetJets’ decision to contact the FBI and to place
Plaintiff on paid administrative leave. And although
NetJets’ delay in placing Plaintiff on leave following the
initial round of interviews may reflect a lack of efficiency,
Plaintiff does not explain how this delay evinces unlawful
discrimination.
Plaintiff similarly attacks NetJets’ delay in conducting
his CRB and ultimately terminating him. He points to
evidence that NetJets’ Labor Department conducted
other CRBs in the same time period.10 Once again,
10. Plaintiff identifies several instances where NetJets
conducted other CRBs while allegedly delaying his. But of the eight
CRBs Plaintiff references, three occurred after his April 1, 2015
CRB and a fourth occurred while NetJets was scheduling Plaintiff’s
CRB. Because NetJets’ proffered reasons for delaying Plaintiff’s
CRB—including its negotiations with the pilots’ labor unions and
other employee groups and changes in key management positions—
occurred before these CRBs were conducted, they are not relevant in
showing that NetJets unreasonably delayed Plaintiff’s CRB. Of the
remaining four, two involved a single incident that was investigated
by flight operations employees as an owner’s complaint. The fact
that an owner was involved necessitated a prompt response. The
remaining two involved operational issues (medical fitness for flight
duty and crew schedule) that were investigated by flight operations
personnel and did not require the involvement of Mark Okey, who
was responsible for conducting CRBs involving more serious matters,
such as Plaintiff’s. See (DE 42-2 at 183-86; DE 47-1 at 9-11, 12-15,
31-36, 37-42, 49-52, 53-44; DE 45-16).

44a
Appendix B
Plaintiff’s argument is unavailing because these delays
are not evidence of discrimination. Indeed, Plaintiff
does not dispute that there is no evidence of intentional
delay. Instead, NetJets has provided legitimate, nondiscriminatory reasons for the gaps in action that—while
reflecting poorly on NetJets’ labor management for that
period—show that discrimination was not to blame.
For example, after reporting the matter to the FBI,
NetJets waited for the outcome of the investigation.
NetJets acknowledges that after the FBI concluded its
investigation, it did not promptly conduct Mr. Siddiqui’s
CRB hearing, but it has offered evidence that during 2014
and 2015, its management was involved in contentious
negotiations with the pilots’ union as well as several
other employee groups. The negotiations occupied a large
amount of the labor relations department employees’ time,
including Mark Okey, Vice President for Labor Contract
Compliance. Okey and other individuals in the labor
relations department were responsible for conducting
review boards for more serious matters, such as Mr.
Siddiqui’s. Several other factors also contributed to the
passage of time after the CRB, including changes in key
management positions at NetJets. In July 2015, Alan
Bobo became the Director of Operations, the position
ultimately responsible for managing flight crews. Finally,
once the EEOC issued its Dismissal and Notice of Rights
letter on May 11, 2016, NetJets moved more expeditiously
to address Mr. Siddiqui’s employment status. NetJets
approached Mr. Siddiqui about resolving the matter
and the parties engaged in settlement discussions until
August of 2016. When negotiations reached an impasse,

45a
Appendix B
Mr. Siddiqui was terminated. Although the Court agrees
with Plaintiff that NetJets could have resolved his case
faster, in light of NetJets’ legitimate, non-discriminatory
reasons for the delay, and in the absence of any evidence
of intentional delay or discrimination, these delays do not
demonstrate pretext.
Plaintiff also asserts that NetJets treated him
unfairly at his CRB by failing to provide context for the
questions they asked him. He argues that his proffered
comparators were confronted with the exact wording of
their inappropriate comments, but he was not. But the
record of the CRB demonstrates that Plaintiff had more
than enough context to answer the panel’s questions,
which included:
• Have you made remarks about Jewish people or the
Jewish religion while on duty?
• Have you made remarks to co-workers about Jews
being responsible for the 9/11 attacks, and other
world problems?
• Did you state to co-workers that the “US military
are the true terrorists?”
• Did you ever make comments to co-workers about
a Jewish owner, who owns the World Trade Center,
stating that this Owner and the US government
masterminded bringing down the World Trade
Center for purposes of implicating Pakistan?

46a
Appendix B
(DE 45-18 at 1-4). Plaintiff twice answered no to each of
these questions. (Id.; DE 52 at 8). Plaintiff should have
been prepared for these questions, because, among other
reasons, the email scheduling the CRB informed him
that he would be asked about “derogatory statements
[he had made] regarding different religions (anti-Semitic
comments) and national origins.” (DE 42-2 at 105). In
addition, Plaintiff has always steadfastly denied ever
making the comments, even after being provided with
the exact wording of the comments during the arbitration
and this litigation. See (DE 45-1 at 157-64, 170-71; DE 4534 at 402, 404, 410, 414, 427, 431, 434, 437, 439-44). As a
result, the Court cannot agree that the questions asked
during the CRB negatively affected the outcome of the
investigation or reflected a discriminatory animus on the
part of NetJets.
Finally, Plaintiff argues that NetJets’ “reasons for
termination likewise reveal inconsistencies.” He asserts
that the final Report of Investigation (ROI)—which was
issued by all four members of the CRB and unanimously
recommended Plaintiff ’s termination—is “biased”
because it: does not include Hyman’s statement after the
initial rounds of interviews that, despite the comments
the pilots reported, they believed Mr. Siddiqui was not a
security threat; does not reflect that Mr. Siddiqui was not
provided sufficient context for the questions he was asked;
unfairly paints Mr. Siddiqui as “dismissive” of the CRB
process; and fails to mention the “rather large break”
taken in the middle of the CRB. (DE 47 at 15-16).

47a
Appendix B
The Court disagrees. As discussed, the record of the
CRB plainly contradicts Mr. Siddiqui’s argument that he
was not provided sufficient context for the questions the
CRB panel asked him. That the ROI did not mention (i)
the statement from Hyman’s August 2016 notes that the
pilots interviewed did not consider Mr. Siddiqui a security
“threat” and (ii) the break during the middle of the CRB
also does not show discriminatory animus. Mr. Siddiqui
was ultimately terminated because NetJets concluded he
had made the inappropriate comments and then lied about
making them. Consequently, the statement from Hyman’s
August 2016 notes was not key to the CRB’s investigation
and conclusion, and the failure to include it therefore does
not show discrimination.11 And Mr. Siddiqui fails to explain
why the break during the CRB evinces discrimination.
For its part, NetJets contends that the break was taken
so Mr. Siddiqui could confer with his representatives.
As for the assertion in the ROI that Mr. Siddiqui was
dismissive of the CRB process, that statement similarly
does not demonstrate unlawful discrimination; indeed,
Mr. Siddiqui concedes that he became upset when he was
asked certain questions twice.
Instead of demonstrating any discriminatory or
retaliatory animus, the ROI, and the record as a whole,
establish that Plaintiff was terminated for making anti11. Based on his experience that bravado was not uncommon
among pilots, Bill Noe testified that he disagreed with Hyman’s
statement. (DE 45-10 at 107:6-109:7). Noe also felt there was a
contradiction in a pilot “basically saying on the one hand I’m very
concerned and I told my wife that if anything happened it’s because
of this guy. Ah, but I think he’s pretty harmless.” (Id. at 110:1-5).

48a
Appendix B
Semitic and other concerning and offensive comments,
failing to acknowledge his inappropriate conduct, and
lying about making those comments during his CRB
hearing. Plaintiff has failed to present sufficient evidence
that NetJets’ legitimate, non-discriminatory reasons
for his termination were pretextual, and thus summary
judgment is appropriate.
“‘[T]o avoid summary judgment [the plaintiff] must
introduce significantly probative evidence showing that the
asserted reason is merely a pretext for discrimination.’”
“A reason is not pretext for discrimination ‘unless
it is shown both that the reason was false, and that
discrimination was the real reason.” Brooks, 446 F. 3d
at 1163 (quoting St. Mary’s Honor Ctr. v. Hicks, 509
U.S. 502, 515, 113 S. Ct. 2742, 125 L. Ed. 2d 407 (1993)).
Plaintiff’s repeated denials at his CRB directly conflicted
with the testimony of at least six different pilots—all of
whom remembered Plaintiff making the offensive and
inappropriate statements. Courts have consistently held
that an employee’s dishonesty constitutes a legitimate,
non-discriminatory basis for termination. Boyland v.
Corr. Corp. of Am., 390 Fed. Appx. 973, 975 (11th Cir.
2010) (violating work policy and lying during subsequent
internal investigation were non-discriminatory reasons
for termination); Dumery v. Kissimmee Utility Auth.,
No. 6:11-cv-862-ORI-22DAB, 2012 WL 12896535, *6
(M.D. Fla. Aug. 6, 2012) (plaintiff’s lying about conduct he
knew was unacceptable in an attempt to cover it up was
a legitimate, non-discriminatory reason for termination).

49a
Appendix B
To be sure, NetJets failed to expeditiously and
efficiently resolve Plaintiff’s matter. But there is no
evidence in the record showing that this failure was the
result of unlawful discrimination or retaliation. A court’s
“. . . inquiry is limited to whether the employer gave
an honest explanation” for the adverse action. Elrod v.
Sears, Roebuck & Co., 939 F.2d 1466, 1470 (11th Cir.
1991) (granting judgment notwithstanding jury’s verdict
in favor of defendant, noting that “[plaintiff] may have
convinced the jury that the allegations against him were
untrue, but he certainly did not present evidence that
[defendants’] asserted belief in those allegations was
unworthy of credence”). It is insufficient for Plaintiff
to rely on irregularities in the process without showing
that the alleged deviations were motivated by his race or
national origin. Labady v. Gemini Air Cargo, Inc., 350
F. Supp. 2d 1002, 1014 (S.D. Fla. 2004) (quoting Lee v.
GTE Florida, Inc., 226 F.3d 1249, 1253 (11th Cir. 2000)).
NetJets has provided evidence that each of its employment
actions towards Plaintiff were motivated or caused by
legitimate, non-discriminatory reasons. Plaintiff fails to
show these reasons were pretextual. Accordingly, NetJets’
motion for summary judgment is granted.
B. Plaintiff’s Retaliation Claim Fails For Similar
Reasons: Plaintiff Cannot Show A Causal Link
Or Pretext
In addition to discriminating against him, Plaintiff also
alleges NetJets unreasonably extended his suspension,
and ultimately terminated his employment, in retaliation
for protected internal complaints and external charges

50a
Appendix B
of discrimination. A plaintiff articulates a prima facie
retaliation claim by showing that “(1) [he] engaged
in protected activity, such as opposing an unlawful
employment practice; (2) [he] suffered an adverse
employment action; and (3) a causal connection exists
between the activity and adverse action.” “[R]etaliation
claims must be proved according to the traditional
principles of but-for causation, not the lessened causation
test stated in § 2000e-2(m). This requires proof that
the unlawful retaliation would not have occurred in the
absence of the alleged wrongful action or actions of the
employer.” Nassar, 133 S. Ct. at 2533.
Plaintiff claims he complained about NetJets’
discriminatory and retaliatory acts on February 16, 2015
via correspondence to NetJets’ in-house counsel, in person
at the CRB on April 15, 2015, and on April 29, 2015, via
filing the First COD with the EEOC. Plaintiff also filed
a charge of discrimination with the EEOC on April 29,
2015, alleging NetJets discriminated and retaliated
against him.
To begin, Plaintiff’s placement on paid administrative
leave for security concerns occurred well before any of
his protected activity and therefore cannot be the “but
for” cause of the alleged adverse consequences. See
EEOC v. Total Sys. Svcs., Inc., 221 F.3d 1171, 1174 (11th
Cir. 2000). Plaintiff also alleges that NetJets convened
the CRB as retaliation in response to its receipt of the
February 16, 2015 correspondence from his counsel. By
that time, however, NetJets was already in the process
of scheduling a CRB for Plaintiff. On January 29, 2015,

51a
Appendix B
for example, Jennifer Beale, NetJets’ Assistant General
Counsel, emailed Plaintiff’s union counsel, Sonya Cook,
advising that NetJets was working on scheduling the
CRB. Although the CRB did not take place until the first
of April, the process of scheduling the CRB was already
underway by the time NetJets received the letter. This
lawsuit also could not have served as the impetus for his
termination, as NetJets did not become aware of the
lawsuit until after Plaintiff’s employment had already
been terminated. (DE 50 ¶ 18). Finally, for the reasons
discussed above, even if Plaintiff could establish a prima
facie case of retaliation, he cannot show that NetJets’
reasons for its action were pretextual. Consequently,
NetJets’ motion for final summary judgment is granted.
IV. CONCLUSION
For the foregoing reasons, the Court ORDERS AND
ADJUDGES that:
1. Defendant’s motion for final summary judgment
(DE 44) is GRANTED. Defendant is entitled to final
summary judgment on all claims in Plaintiff’s amended
complaint.
2. Plaintiff’s motion for partial summary judgment
(DE 42) is DENIED.
3. All other pending motions are DENIED AS MOOT.
4. All deadlines and trial settings are CANCELED.
5. The Clerk is DIRECTED to CLOSE this case.

52a
Appendix B
6. The Court will enter final summary judgment
separately pursuant to Rule 58 of the Federal Rules of
Civil Procedure.
DONE AND ORDERED in chambers in Miami,
Florida, this 23rd day of July, 2018.
/s/ Kathleen M. Williams		
KATHLEEN M. WILLIAMS
UNITED STATES DISTRICT
JUDGE

53a
APPENDIX C —Appendix
DENIAL COF REHEARING
OF THE UNITED STATES COURT OF
APPEALS, DATED JULY 18, 2019
IN THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
No. 18-13463-DD
AMEER SIDDIQUI,
Plaintiff-Appellant,
versus
NETJETS AVIATION, INC.,
Defendant-Appellee.
Appeal from the United States District Court
for the Southern District of Florida
BEFORE: NEWSOM, BRANCH, and JULIE CARNES,
Circuit Judges. PER CURIAM:
The petition(s) for panel rehearing filed by Appellant
Ameer Siddiqui is DENIED.
ENTERED FOR THE COURT:
/s/					
UNITED STATES CIRCUIT JUDGE
ORD-41

